<html>
<title> - OVERSIGHT OF THE FISCAL YEAR 2008 BUDGET FOR THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION</title>
<body><pre>[Senate Hearing 110-1162]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1162
 
                   OVERSIGHT OF THE FISCAL YEAR 2008
                    BUDGET FOR THE NATIONAL OCEANIC
                     AND ATMOSPHERIC ADMINISTRATION

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
75-679                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b4c5b446b485e585f434e475b0548444605">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
Kenneth R. Nahigian, Republican Deputy Staff Director and Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         TRENT LOTT, Mississippi
JOHN F. KERRY, Massachusetts         GORDON H. SMITH, Oregon
BARBARA BOXER, California            JOHN E. SUNUNU, New Hampshire
BILL NELSON, Florida                 JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware
AMY KLOBUCHAR, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 28, 2007....................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Nelson......................................    19
Statement of Senator Snowe.......................................     3

                               Witnesses

Lautenbacher, Jr., Vice Admiral Conrad C., (U.S. Navy, Ret.), 
  Under Secretary for Oceans and Atmosphere and Administrator, 
  National Oceanic and Atmospheric Administration (NOAA), U.S. 
  Department of Commerce.........................................     5
    Prepared statement...........................................     7

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    29
Response to written questions submitted to Vice Admiral Conrad C. 
  Lautenbacher, Jr. by:
    Hon. Maria Cantwell..........................................    29
    Hon. John F. Kerry...........................................    44
    Hon. Bill Nelson.............................................    45


                   OVERSIGHT OF THE FISCAL YEAR 2008
                    BUDGET FOR THE NATIONAL OCEANIC
                     AND ATMOSPHERIC ADMINISTRATION

                              ----------                              


                        THURSDAY, JUNE 28, 2007

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:09 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Maria 
Cantwell, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Good morning. The oversight hearing of 
the Fiscal Year 2008 budget for NOAA, Oceans, Atmosphere, 
Fisheries, and Coast Guard Subcommittee will come to order.
    We're going to hear from Vice Admiral Lautenbacher, but, 
before that, we'll make opening statements, for any members 
that would like to make opening statements.
    I'd like to thank all of you for being here this morning to 
have this hearing on the National Oceanic and Atmospheric 
Administration's Fiscal Year 2008 budget.
    I want to thank Admiral Lautenbacher for being here today, 
and for your detail to attention on these important budget 
priorities.
    NOAA has been in the spotlight over the last several years 
as the Nation has paid increased attention to our oceans and to 
our atmosphere, and events such as the tragic Boxing Day 
tsunami of 2004 and the hurricanes of Katrina and Rita have 
shown that better understanding of our oceans and atmosphere 
saves lives.
    NOAA scientists have played a key role in understanding 
climate change and measuring ocean acidification, two key 
environmental challenges we face in our country and around the 
globe.
    We have also had two national commissions on ocean policy. 
They have made recommendations for transforming the way we 
manage, study, govern, and make policy on our oceans and marine 
resources. More than half of all Americans live in coastal 
communities, and an increasingly dense coastal population 
requires better understanding of how people, the oceans, and 
the atmosphere interact.
    Tsunamis, sea-level rise, more intense hurricanes, and 
rising demand for seafood all require a strong Federal 
investment in research and new approaches to ocean governance.
    Quite frankly, Admiral, in the light of the challenges I 
see, particularly as it relates to good information and the use 
of technology as an investment for NOAA to play that vital role 
in protecting all of us, I am concerned to see a flat budget 
request from NOAA for the third year in a row. The NOAA FY 08 
budget request of $3.8 billion is 2 percent below 2007. The 
National Ocean--that is, the enacted level, I should say--the 
National Ocean Services took an especially large cut, 21 
percent down, from the $468 million of--compared to where it 
was in 2006. In contrast to the Administration's request, the 
Joint Ocean Commission Initiative recommended a funding level 
of $4.5 billion. We need to recognize that--the challenges in 
improving, understanding, and management of our oceans and 
atmosphere, and the investments that it will take to reflect 
that.
    Admiral as you know, there has been a lot of attention of 
late to our rapidly aging system of weather, hurricane, 
climate, and ocean monitoring satellites. We rely on this 
technology for accurate weather predictions, which is 
especially important as we enter hurricane season. But these 
satellites are reaching, or have surpassed, their expected 
service lives. While I understand that NOAA has made replacing 
these satellites a priority, I am concerned that it does not 
have the funds or a plan to--in place--to resolve this 
situation.
    Despite the growing threats caused by climate change, I see 
that funding for climate change research took a 9 percent cut 
this year, and I'm particularly troubled to see that the Abrupt 
Climate Change Research Program again zeroed out in this year's 
budget request. I am pleased to work with Senators Snowe and 
Collins on an amendment that we had in this year's energy bill 
that would direct increased funds to NOAA to research the 
pressing issue of abrupt climate change. I hope this amendment 
will ensure that, in the future, the Administration will stop 
the blocking of this vital resource.
    This year, again, the President's request for the Pacific 
Coastal Salmon Recovery Fund was disappointing, and--at a low 
$67 million. Between its establishment, in 2000, and 2005, 
average appropriations to this fund were $87 million. This fund 
goes to states and tribes who are on the front line of salmon 
recovery.
    And, Admiral, as we had a chance to discuss yesterday in my 
office, I think some of the proactive work done by a 
collaboration of interests in Washington State--tribes, 
fisheries, agricultural interests, water resource management 
concerns--have all shown, in the shared recovery plan, more 
effective results than, I would say, as another hearing that I 
chaired recently as a--the Subcommittee of the Energy 
Committee, on Energy Water Resources--on a San Joaquin 
settlement, after many, many years of court battles, and 
continued court battles, and continued court battles, a 
proposed settlement. So, having the resources to do salmon 
recovery, and the willingness of all of the interested parties, 
although they have conflicts, to work together in advance, I 
think, are yielding great results. So, I hope that we will fund 
the Salmon Recovery Plan at its full need.
    I'm also disappointed to see the funding for NOAA's 
education program take a 50 percent cut. And, finally, I'd like 
to observe the Marine Mammal Initiative that--the Nonpoint 
Pollution Grants and the Marine Debris Removal Program were 
also zeroed out from this year's budget. So, I look forward to 
hearing your comments on that, and working with my colleagues 
to restore that.
    I understand that you are operating in tight fiscal times, 
and I appreciate your attention to the juggling of those 
issues, but I know that--working with the full Committee and 
working with Senator Snowe, that we still have lots of work to 
do. And, while I won't go into detail, there are many other 
issues, as it relates to the Northwest, that I just, if I have 
a chance, will continue to bring up--the Puget Sound, Southern 
Resident orca population, and our recovery plan, NOAA's Pacific 
Marine Environmental Labs and the research that they are doing 
on both acidification and tsunami detection, and making sure 
that the detection program works, and works effectively. It is 
not a matter of whether we are going to have another tsunami in 
the Northwest--we will have one--the question is, how well 
prepared will we be? And obviously we want to continue to work 
with a variety of programs through our university system to 
make sure that we are ready for that.
    So, with that, I will turn it over to my colleague, the 
Ranking Member, Senator Snowe, for her opening comments.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Madam Chair. And thank you, as 
well, for convening this hearing today to have the opportunity 
to review the budget request of NOAA.
    It's been nearly 3 years since the U.S. Commission on Ocean 
Policy released its final report, and since the President's 
response, with his Ocean Action Plan. And some of those 
recommendations have been implemented, most notably the 
reauthorization, finally, of the Magnuson-Stevens Act, but we 
have much left to accomplish, and our success hinges on 
securing adequate funding for existing and future ocean 
initiatives.
    I want to welcome you, Admiral Lautenbacher, to the hearing 
here today, and to discuss some of the key programmatic and 
budget issues that are confronting your agency. Your insight 
and leadership must drive our Nation to improve the management 
and conservation of our ocean and coastal resources, and we 
rely on you to ensure that these vital programs receive 
adequate fiscal support.
    Like the Chair, I, too, am very much concerned about the 
level of budget requests for your agency. And we had an 
opportunity to discuss that yesterday. But clearly it is a 
reduction. While--I know that it's a proposal--the $3.9 billion 
request represents an increase of 3.4 percent over the 
President's budget in 2007, it still represents a 2.5 percent 
decrease from the amount that Congress actually appropriated 
for Fiscal Year 2007. If Congress were to enact the 
Administration's budget, we would see a net effect of 30 
percent decline in funding for ocean monitoring programs, such 
as the Nation's Ocean and Coastal Observing Systems, a 47 
percent reduction in cooperative fishery research programs, so 
essential to our industries at a time in which I know the 
groundfish industry is struggling in the State of Maine and 
throughout New England. Operation of lean streamlined ocean 
management programs, I know, is an admirable goal; but these 
reductions are more than just trimming the excess fat, they cut 
to the bone of some of these vital programs. So, clearly, we're 
going to have to examine these issues.
    The establishment of an Integrated Ocean Observing System 
was among the Ocean Commission's top recommendations, and 
number six on the Joint Ocean Commission's initiative top-ten 
list of priorities for Congress. I sponsored bills, that were 
supported by the Chair, that have passed in each of the past 
two Congresses, to authorize such a system, and, just 
yesterday, our legislation was passed by the full Committee.
    Data from Ocean Observing Systems alerts mariners to 
hazardous conditions and contributes to weather and climate 
forecasting that leads to vast cost savings. A study, in fact, 
by the scientists at Woods Hole Oceanographic Institute 
estimated that the Gulf of Maine Ocean Observing System 
returned $6 to the regional economy for every dollar that was 
invested. The Ocean Commission recommended initial funding for 
the Ocean Observing System of $138 million in its first year, 
escalating to a half a billion dollars, and yet, your 2008 
budget request, $2.5 million for an office within NOAA, and 
$11.5 million for the regional associations, is barely a tenth 
of the Ocean Commission's recommendation, and more than 33 
percent less than the enacted funding level for Fiscal Year 
2007. So obviously, these are issues that we're going to have 
to examine as we proceed.
    And finally, as you're aware, fishery management is another 
integral issue to my state, certainly to the Chairman's state 
and to this country. In recent years, we've seen a precipitous 
decline in the catch and landing of species--whether it's cod, 
flounder, or bluefin tuna--that have traditionally formed the 
lifeblood of our commercial fisheries. If we are to recover 
these stocks and to bring them back from the brink, we will 
require significant investments in fishery research to ensure 
we're using the best available data and science, and producing 
stock estimates that allow us to achieve the maximum 
sustainable yield, while preventing overfishing from occurring. 
Cooperative fishery research has proven extremely successful in 
Maine, bringing scientists and commercial fishermen together, 
not only to collect better data, but also to develop 
relationships, allowing scientists to benefit from fishermen's 
knowledge, and fishermen to see that the research is being 
carried out effectively. Cuts to these programs on the level 
that this budget proposes, will certainly have a far-reaching 
impact on the development of effective regulations, not to 
mention the ability of fishermen to comply in devastating their 
own livelihoods.
    So, these are issues, Admiral, that hopefully we can 
examine and explore in greater detail here this morning in 
questioning. I do want to thank you for the $10 million request 
to fund an unprecedented dam removal program in the State of 
Maine, in the Penobscot River, that will restore nearly 1,000 
miles of habitat for the Atlantic salmon. This is a historic 
project, and I know it's going to produce tremendous dividends 
to the species and to the State of Maine. I think it's a great 
model for what we can do across this country to restore 
different habitats and species. So, I want to thank you for 
your leadership in that regard.
    I hope that we have the opportunity to discuss all of these 
issues and more, and thank you for your responsiveness and 
attentiveness to many of the issues that I and the Chair have 
raised. And I'm looking forward to working with you.
    Thank you.
    Senator Cantwell. Admiral Lautenbacher, thank you very much 
for being here. We'll allow you to make your statement.

 STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER, JR., (U.S. 
  NAVY, RET.), UNDER SECRETARY FOR OCEANS AND ATMOSPHERE AND 
ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION 
                         (NOAA), U.S. 
                     DEPARTMENT OF COMMERCE

    Admiral Lautenbacher. Thank you very much, Madam Chair, 
Senator Snowe, distinguished members of the staff. I appreciate 
very much this opportunity to come before the Committee to 
discuss our Fiscal Year 2008 budget request. I particularly 
appreciate your leadership and your continued support for our 
programs. I know that we work together with the same goal in 
mind, to improve our products and services and do the best for 
the American people.
    Before I go into my short oral remarks, I would like to 
request that my written statement be included, in its entirety, 
in the record.
    Senator Cantwell. It will be. Thank you.
    Admiral Lautenbacher. Thank you.
    Before I give you some details on the budget request, I'd 
like to highlight some of our accomplishments, which I think 
are very important and represent the kind of work that we've 
done together to try to improve the NOAA performance with the 
public.
    First of all, last year the President designated the 
Northwestern Hawaiian Islands as a Marine National Monument. 
It's now known as the Papahanaumokuakea. It encompasses 140,000 
square miles. It is the largest protected marine area in the 
world, larger than the Greater Barrier Marine Reef, has 4,500 
square miles of relatively undisturbed coral reef habitat, home 
to more than 7,000 species. For the first time in history, NOAA 
will play a leading role in managing a national monument. It's 
an exciting and important opportunity for NOAA.
    NOAA also designated essential fish habitat area covering 
150,000 square miles off the coasts of Washington, Oregon, and 
California. The regulations under this plan prohibit fishing 
methods, such as bottom-trawling, that can cause long-term 
damage to the ocean floor, and are aimed at replenishing fish 
stocks.
    NOAA has greatly increased the security of our Nation's 
people living along our coastlines, through a combination of 
new tsunami buoys and around-the-clock warning capability, 
thanks to support from Congress. NOAA now has 28 special buoys 
around the U.S. Coast and around the Pacific Coast. Plans call 
for this U.S. Tsunami Warning System to include 39 buoy 
stations by spring of 2008, with 32 in the Pacific and seven in 
the Atlantic. There are five in place in the Atlantic, by the 
way. NOAA has achieved full 24-by-7 operations of the two--
Nation's two Tsunami Warning Centers located in Alaska and 
Hawaii. They provide warnings and alerts to the Nation and the 
Pacific Rim that are now serving the Indian Ocean for the 
amount of--for the number of sensors that we have there.
    NOAA collaborated with Federal partners to place a NOAA 
weather radio in every public school in America--that's more 
than 97,000 radios--to add in protecting our children. The NOAA 
weather radios provide automatic alerts for severe weather, 
manmade disasters, such as chemical spills and terrorism 
threats, as well as AMBER Alerts for missing children.
    My written testimony has more details, but, basically, the 
priority areas for our budget this year were, first of all, 
sustaining critical operations. We had to do that. That's 
number one. The other four items are--not in any particular 
order, but are very important: first of all, supporting the 
U.S. Ocean Action Plan, as indicated in your opening 
statements; improving weather warnings and forecasts; climate 
monitoring and research; and critical facilities investment.
    The FY 08 request is $3.8 billion. It provides modest new 
investments in our priority areas, while maintaining critical 
services. To sustain those critical operations, over $54 
million in net increases to--will support our workforce and pay 
for the cost of doing business--regular inflation costs--to 
keep our core businesses and core operations in full operation. 
I request the support on that as the top priority.
    Continued implementation of the President's Ocean Action 
Plan, which is the response to the two committees that have 
been mentioned in the opening statement--is a priority for the 
Administration. The 2008 Budget Request for NOAA has $123 
million in increases to support the plan over the President's 
budget increase for 2007. This includes $60 million to advance 
ocean science and research, $38 million to protect and restore 
marine and coastal areas, and $25 million to ensure sustainable 
use of ocean resources. Specifically, the budget request 
includes over $16 million for an Integrated Ocean Observing 
System, or IOOS, for development of regional systems--this is 
the first time that we have had a line item to support that 
system--as well as improved data management and communications. 
It also includes $8 million for enforcement and management 
activities in the newly designated Marine National Monument in 
Hawaii.
    NOAA is actively supporting a number of efforts focused on 
restoring ecosystems in fisheries. The budget request, nearly 
$13 million, for our Community-Based Restoration Program, and 
through that program we will award funds to build upon our 
efforts with local partners, such as in the Puget Sound area, 
where we are working to restore this vital ecosystem and the 
fisheries and services that it supports.
    The 2008 budget also requests $10 million for the Penobscot 
River Restoration Project in Maine, as mentioned in the opening 
statements. The project will restore a run of over 10,000 adult 
salmon, 1.5 million shad, and roughly 8 million river herring 
to the Gulf of Maine and beyond. It's the single most important 
project that we have to support Atlantic salmon.
    To improve weather warnings and forecasts, our budget 
increase--requests an increase of $5 million to support 
operations and maintenance of hurricane data buoys and research 
on hurricane intensity, that will save lives. Over $6 million 
more will go in--go toward hurricane modeling efforts and 
hiring employees to support the newly refurbished P-3 
``hurricane hunter'' aircraft, which increases our force from 
two to three.
    To support climate monitoring and research, NOAA is moving 
forward with an increase of $3 million in funding to support 
the use of unmanned aircraft systems, or UAS. We will continue 
to evaluate the benefits of using UAS to conduct long-endurance 
flights for weather observations, atmospheric composition, and 
climate monitoring, and gathering critical data for input into 
hurricane models.
    The 2008 budget supports critical facility investments, 
with a request of over $20 million for continued construction 
of the NOAA Pacific Regional Center on Ford Island. By bringing 
our programs together into this new and expanded facility, we 
expect to realize benefits in improved operations and mission 
performance. In March, two NOAA ships arrived at their new home 
port at Ford Island, with a third NOAA ship to follow later 
this year. Getting them into their new home port is a major 
milestone, and I thank Senator Inouye and other members of this 
Committee and the Senate who have supported these efforts.
    In closing, let me just mention that there are some very 
important legislative priorities that go along with our budget 
for 2008. The Administration has sent Congress draft 
legislation on aquaculture, coral reefs, and hydrographic 
services, among others. We are also working on draft 
legislation for a NOAA Organic Act and reauthorizing the 
National Marine Sanctuaries Act, Marine Mammal Protection Act, 
and Sea Grant. We appreciate the introduction of the initial 
bills that I have mentioned, and the support from this--that 
this Committee has provided for these very important 
legislative initiatives. We wish to work together with you to 
ensure their passage.
    Thank you, again, for this opportunity to present the 2008 
budget request for NOAA, and I'm happy to stand by to answer 
any questions you may have.
    [The prepared statement of Admiral Lautenbacher follows:]

 Prepared Statement of Vice Admiral Conrad C. Lautenbacher, Jr. (U.S. 
      Navy, Ret.), Under Secretary for Oceans and Atmosphere, and 
Administrator, National Oceanic and Atmospheric Administration (NOAA), 
                                 U.S. 
                         Department of Commerce

    Mr. Chairman and Members of the Committee, before I begin my 
testimony I would like to thank you for your leadership and the 
generous support you have shown the National Oceanic and Atmospheric 
Administration (NOAA). Your continued support for our programs is 
appreciated as we work to improve our products and services for the 
American people. Thank you for the opportunity to testify on the 
President's Fiscal Year (FY) 2008 Budget Request for NOAA.
    The FY 2008 President's Budget supports NOAA's priority to advance 
mission-critical services. The FY 2008 request is $3.815 billion, which 
represents a $131 million or 3.4 percent increase over the FY 2007 
request. This request includes the level of resources necessary to 
carry out NOAA's mission, which is to understand and predict changes in 
the Earth's environment, and conserve and manage coastal and marine 
resources to meet our Nation's economic, social and environmental 
needs. At NOAA we work to protect the lives and livelihoods of 
Americans, and provide products and services that benefit the economy, 
environment, and public safety of the Nation. Before I discuss the 
details of our FY 2008 budget request, I would like to briefly 
highlight some of NOAA's notable successes from the past Fiscal Year 
(2006).

FY 2006 Accomplishments
President Designates Largest Fully-Protected Marine Area on Earth
    Recognizing the continuing need for resource protection, President 
Bush designated the Northwestern Hawaiian Islands as a marine national 
monument on June 15, 2006. Encompassing nearly 140,000 square miles, 
the monument covers an area larger than all of our national parks put 
together, including 4,500 square miles of relatively undisturbed coral 
reef habitat that is home to more than 7,000 species. The creation of 
the largest fully-protected marine area in the world is an exciting 
achievement and recognizes the value of marine resources to our Nation.

Successful Launch of NOAA Satellite GOES-13 and New Satellite 
        Operations Facility Ensure Continuity of Improved Data 
        Collection
    On May 24, 2006, officials from NOAA and the National Aeronautics 
and Space Administration (NASA) confirmed that a new geostationary 
operational environmental satellite, designed to track hurricanes and 
other severe weather impacting the nation, successfully reached orbit. 
Upon reaching final orbit, the satellite was renamed GOES-13. This is 
the first in a new series of satellites featuring a more stable 
platform enabling improved instrument performance. NOAA instruments 
were also launched on the European MetOp-A polar-orbiting satellite in 
October 2006. Combined with NOAA and Department of Defense (DOD) 
operational satellites, MetOp-A will help provide global data for 
improving forecasts of severe weather, disaster mitigation, and 
monitoring of the environment. This launch ushered in a new era of 
U.S.-European cooperation in environmental observing.
    In 2006, NOAA satellite operations and data processing groups began 
moving into the new NOAA Satellite Operations Facility (NSOF). The NSOF 
will house the NOAA satellite command and control functions and data 
and distribution activities that are central to NOAA's mission. The 
NSOF will also house the U.S. Mission Control Center for the Search and 
Rescue Satellite-Aided Tracking (SARSAT) program and the National Ice 
Center (NIC), a joint NOAA/DOD mission to track ice floes and issue 
warnings to the Nation's maritime force. The NSOF officially opened on 
June 11, 2007.

Enhancements to NOAA's Fleet of Ships and Aircraft
    Significant progress is being made in modernizing NOAA's fleet. 
NOAA took delivery of the Fisheries Survey Vessel (FSV) HENRY B. 
BIGELOW, the second of 4 new FSV, on July 25, 2006. The BIGELOW has 
high-tech capabilities that make it one of the world's most advanced 
fisheries research ships. These ships will be able to perform hydro-
acoustic fish surveys and conduct bottom and mid-water trawls while 
running physical and biological oceanographic sampling during a single 
deployment--a combined capability unavailable in the private sector 
that will enable research and assessment to be carried out with greater 
accuracy and cost efficiency. NOAA also took delivery from the Navy of 
a ``retired'' P-3 aircraft in response to the hurricane supplemental 
bill attached to the FY 2006 Defense appropriations legislation. 
Rehabilitation of the P-3 is expected to be completed by the start of 
the 2008 hurricane season.
Magnuson-Stevens Fishery Conservation and Management Act Reauthorized
    Congress reauthorized the Magnuson-Stevens Fishery Conservation and 
Management Act (MSA) in December, 2006, and it was signed into law by 
President Bush on January 12, 2007. The MSA is the guiding legislation 
that authorizes fishery management activities in Federal waters. 
Enactment of this bill was one of the top priorities of the U.S. Ocean 
Action Plan. The reauthorized MSA strengthens NOAA's ability to end 
overfishing, rebuild fish stocks, and work collaboratively on 
conservation.

U.S. Tsunami Warning System Improved
    NOAA designed easy to deploy Deep-ocean Assessment and Reporting of 
Tsunamis (DART)-II technology, which provides two-way communication 
between the buoys and NOAA facilities. This technology allows engineers 
to troubleshoot these systems from the lab and repair the systems 
remotely when possible. This functionality can minimize system downtime 
and save money by not requiring a ship be deployed to make minor 
repairs. The U.S. Tsunami Warning Program also created tsunami impact 
forecast models for nine major coastal communities, providing 
information for inundation maps. With the December 11, 2006 deployment 
of DART #23 in the Western Pacific Ocean, NOAA achieved initial 
operating capability (IOC) of the planned expanded U.S. Tsunami Warning 
Program. NOAA also achieved full 24/7 operations of the Nation's two 
Tsunami Warning Centers. Plans call for the U.S. Tsunami Warning 
Network to total 39 DART-II buoy stations by mid-summer 2008 (32 in the 
Pacific, 7 in the Atlantic).
    NOAA also continued to monitor sea height through a network of 
buoys and tide gauges, collecting information critical to understanding 
the time of arrival and the height of tsunami waves. In 2006, NOAA 
completed the installation of eight new National Water Level 
Observation Network (NWLON) stations to fill gaps in the detection 
network, bringing the two-year total to 15. The 15 stations were 
installed in California, Oregon, Washington, Alaska, Puerto Rico, and 
the Virgin Islands. These and other new stations brought the NWLON to 
200 stations by the end of calendar year 2006. In addition, NOAA 
continued to upgrade the entire NWLON to real-time status by replacing 
over 50 data collection platforms.

Red Tide Monitoring Protects Human Health and Coastal Economics in New 
        England
    In the wake of the 2005 New England red tide crisis that forced the 
closure of most shellfisheries in the region, NOAA provided additional 
emergency funding in 2006 to provide timely and critical information to 
state managers to build upon long-term research supported by the 
Ecology and Oceanography of Harmful Algal Bloom, and Monitoring and 
Event Response for Harmful Algal Bloom programs at the Woods Hole 
Oceanographic Institution, as well as other partner institutions. In 
the spring of 2006, NOAA-sponsored monitoring detected rapid 
escalations of the bloom, which subsequently closed shellfisheries in 
Massachusetts, New Hampshire and Maine. Additional NOAA efforts allowed 
New England managers to make more strategic sampling and shellfish bed 
closures/openings to protect human health and minimize the economic 
impacts of harmful algal blooms.

National Estuarine Research Reserve System Adds 27th Reserve
    On May 6, 2006, Commerce and Congressional officials dedicated the 
newest site in the National Estuarine Research Reserve System in Port 
Aransas, TX, bringing the total to 27 reserves. This new reserve 
introduces a new biogeographic area type into the system, and adds 
185,708 acres of public and private land and water. The reserves are 
Federal-state partnerships, where NOAA provides national program 
guidance and operational funding. These reserves serve as living 
laboratories for scientists and provide science-based educational 
programs for students and the public.

Wide Application Potential of Unmanned Aircraft Systems Demonstrated
    In 2006, NOAA worked with Federal and private sector partners to 
successfully demonstrate Unmanned Aircraft Systems (UAS) technology. 
NOAA is interested in UAS as a tool to explore and gather data to help 
us reach new heights in our ability to understand and predict the world 
in which we live. Use of UAS could help NOAA achieve our mission goals 
and provide cost-effective means to: enforce regulations over NOAA's 
National Marine Sanctuaries, conduct long endurance flights for 
weather, conduct research over areas that pose significant risks to 
pilots, validate satellite measurements, provide counts of marine 
mammal populations, monitor atmospheric composition and climate, and 
hover above hurricanes and gather critical data for input into 
hurricane models. NOAA will continue to examine how UAS can assist in 
the collection of environmental data.

Protecting Habitat Essential to Fish
    In 2006, over 500,000 square miles of U.S. Pacific Ocean habitats 
were protected from damage by fishing practices, particularly bottom-
trawling. Combined, these areas are more than three times the size of 
all U.S. national parks. The historic protections, implemented by NOAA 
with the support and advice of the regional fishery management 
councils, fishing industry, and environmental groups, made the 
protection of essential fish habitat and deep coral and sponge 
assemblages a significant part of management efforts to conserve 
fisheries in the Pacific Ocean.

NOAA Continues Efforts to Assist with Gulf Coast Recovery Following 
        2005 Hurricanes Katrina and Rita
    In addition to providing the forecasts and immediate response 
assistance in 2005, following Hurricanes Katrina and Rita, NOAA has 
continued to assist with Gulf Coast recovery efforts in FY 2006.
    NOAA ships and aircraft provided critical response and recovery 
capabilities in the aftermath of Hurricanes Katrina and Rita. NOAA Ship 
THOMAS JEFFERSON completed obstruction surveys in the Gulf of Mexico so 
that busy ports and shipping lanes could be re-opened to traffic. 
NOAA's Citation aircraft flew post-storm damage assessment surveys 
along the coasts of the Gulf States. This imagery was downloaded on the 
NOAA website, enabling emergency managers, local officials and average 
citizens to inventory damage and prioritize recovery efforts.
    NOAA mounted a multi-pronged effort to address fishery-related 
impacts in the Gulf of Mexico in FY 2006. In August, 2006, NOAA awarded 
$128 million to the Gulf States Marine Fisheries Commission to reseed 
and restore oyster beds and conduct fisheries monitoring in the Gulf. 
In addition, NOAA Ship NANCY FOSTER conducted a seafood contamination 
survey for NOAA Fisheries near the Mississippi Delta to spot potential 
safety issues. This research monitored the seafood coming in from the 
Gulf to ensure it was safe for public consumption (free of PCBs, 
pesticides, and fossil fuels).

Collaboration Enables a NOAA Weather Radio to be Placed in Every Public 
        School in America
    NOAA and the Departments of Homeland Security and Education worked 
to get 97,000 NOAA weather radios placed in every public school in 
America to aid in protecting our children from hazards, both natural 
and man-made. In many cases, local Weather Forecast Office staff 
provided expertise in programming the radios to select specific hazards 
and geographic areas for which the school wanted to be alerted. This 
multi-month effort required close collaboration between the Departments 
of Homeland Security, Education, and Commerce (NOAA). This effort 
enabled schools to connect to part of the Nation's Emergency Alert 
System and greatly increases environmental situational awareness and 
public safety.

World Ocean Database 2005
    NOAA's National Oceanographic Data Center (NODC) released a major 
upgrade to its World Ocean Database product. World Ocean Database 2005 
(WOD05) is the largest collection of quality-controlled ocean profile 
data available internationally without restriction. All data are 
available on-line for public use. Data are available for 29 ocean 
variables, including plankton data. The database includes an additional 
900,000 temperature profiles not available in its predecessor. The 
database provides the ocean and climate science communities with 
research-quality ocean profile data sets that will be useful in 
describing physical, chemical and biological parameters in the ocean, 
over both time and space. This database is a crucial part of the 
Integrated Ocean Observing System and the Global Earth Observation 
System of Systems.

New Arctic Observatory Established for Long-Term Climate Measurements
    NOAA's Earth System Research Laboratory in Boulder, Colorado, in 
conjunction with our Canadian counterparts, established a research site 
located on Ellesmere Island to make long-term climate measurements of 
Arctic clouds and aerosols. This observatory supports NOAA's activities 
for the 2007-2008 International Polar Year.

NOAA Scientists Identify Carbon Dioxide Threats to Marine Life
    A report co-authored by NOAA research scientists documents how 
carbon dioxide is dramatically altering ocean chemistry and threatening 
the health of marine organisms. The research also uncovered new 
evidence of ocean acidification in the North Pacific. The report 
resulted from a workshop sponsored by NOAA, the National Science 
Foundation, and the U.S. Geological Survey.

First Operational Satellite Products for Ocean Biology
    In June, 2006, NOAA began to process and distribute ocean biology 
products for U.S. coastal waters, using satellite observations. This 
activity represents a successful transition of NASA research to NOAA 
operations. These products (e.g. chlorophyll concentration) represent 
the first satellite-derived biological products generated by NOAA for 
coastal and open ocean waters. These products are useful in detecting 
and monitoring harmful algal blooms, assessing regional water quality, 
and locating suitable habitat for fish and other important marine 
species. Development of these products prepares NOAA for generating and 
distributing ocean biology products in the global ocean after 2010.
FY 2008 Budget Request Highlights

Supporting the U.S. Ocean Action Plan
    Coastal and marine waters help support over 28 million jobs, and 
the value of the ocean economy to the United States is over $115 
billion. The commercial and recreational fishing industries alone add 
over $48 billion to the national economy each year. The FY 2008 
President's Budget requests $123 million in increases for NOAA to 
support the President's U.S. Ocean Action Plan. This oceans initiative 
includes $38 million to protect and restore marine and coastal areas, 
$25 million to ensure sustainable use of ocean resources, and $60 
million to advance ocean science and research.
    New investments in ocean science are aimed at monitoring and better 
understanding marine ecosystems. Increased funding of $16 million is 
included for the Integrated Ocean Observing System to enhance models 
and information products through development of regional systems and 
improved data management and communications. A total increase of $20 
million is provided for NOAA research on four near-term priorities 
established through the national Ocean Research Priorities Plan. An 
additional $8 million will support exploring and defining areas of the 
continental shelf that are adjacent to, but currently outside of, U.S. 
jurisdiction. This work will enable a U.S. claim to these areas and the 
potential $1.2 trillion worth of resources they are estimated to 
contain.
    The FY 2008 President's Budget builds on NOAA's strong record of 
investing in projects that embody the spirit of cooperative 
conservation. Projects to protect and restore valuable marine and 
coastal areas include funding of $8 million for enforcement and 
management activities in the recently designated Northwestern Hawaiian 
Islands Marine National Monument, and $10 million for a project to 
restore nearly 1,000 stream miles of habitat for endangered Atlantic 
salmon and other fish species. A total of $15 million is provided for 
the Coastal and Estuarine Land Conservation Program, to assist state 
and local partners in the purchase of high priority coastal or 
estuarine lands or conservation easements. Increased funding of $3 
million is also included to support Klamath River salmon recovery 
projects. Finally, an increase of $5 million will support competitive 
grant programs focused on the Gulf of Mexico Alliance coastal resource 
priorities, as identified in the Governors' Action Plan for Healthy and 
Resilient Coasts.
    Finally, the FY 2008 NOAA budget provides support to ensure 
sustainable access to seafood through development of offshore 
aquaculture and better management of fish harvests. The Administration 
will propose legislation to establish clear regulatory authority and 
permitting processes for offshore aquaculture. An increase of $3 
million is included to establish the regulatory framework to encourage 
and facilitate development of environmentally sustainable commercial 
opportunities. In addition, $20 million in increases are provided to 
improve management of fish harvests, including $6.5 million in 
increases to implement the new and expanded requirements of the 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act of 2006, $3 million for observer programs, and $6 million for 
market-based approaches to fisheries management. Market-based 
approaches--such as Limited Access Privilege Programs (LAPPs) that 
provide exclusive privileges to harvest a quantity of fish--move 
fisheries management away from cumbersome and inefficient regulatory 
practices and have been shown to lead to lengthened fishing seasons, 
improved product quality, and safer conditions for fishermen. The 
Administration has set a goal of doubling the number of LAPPs in use by 
the year 2010, and the increased funding of $6 million for LAPPs in 
this request supports that goal. Finally, an additional $2 million in 
funding is provided to meet the management challenges of assessing and 
mitigating the impacts of sound from human activities, such as national 
defense readiness and energy exploration and development, on marine 
mammals.

Sustaining Critical Operations
    As always, I support NOAA's employees by requesting adequate 
funding for our people, infrastructure, and facilities. NOAA's core 
values are science, service, and stewardship, as well as people, 
ingenuity, integrity, excellence, and teamwork. Our ability to serve 
the Nation and accomplish the missions outlined below is determined by 
the quality of our people and the tools they employ. Our facilities, 
ships, aircraft, environmental satellites, data-processing systems, 
computing and communications systems, and our approach to management 
provide the foundation of support for all of our programs. 
Approximately $54.6 million in net increases will support our workforce 
inflation factors, including $44.9 million for salaries and benefits 
and $6.6 million for non-labor related adjustments such as fuel costs.
    This year, we focus on the operations and maintenance of NOAA 
vessels and necessary enhancements to marine safety, facility repair, 
and modernization. A funding increase of $8.3 million will be used to 
support marine operations and equipment, including $5.6 million for new 
vessel operations and maintenance and $1.7 million to implement a more 
effective maritime staff rotation and safety enhancements. This funding 
will support the operations maintenance for the OKEANOS EXPLORER, 
NOAA's first dedicated Ocean Exploration vessel. Increased funding of 
$5.5 million will support operations and maintenance for NOAA's third 
P-3 aircraft. NOAA is also moving forward this year with increases in 
funding for unmanned vehicles, with $0.7 million in support of 
Autonomous Underwater Vehicles (AUV) and an increase of $3 million in 
funding to support the further use of Unmanned Aircraft Systems (UAS). 
With this increase, NOAA will evaluate the benefits and potential of 
using UAS to collect data crucial for climate models, weather research, 
fisheries enforcement, and coastal zone studies.
    The backbone of the NOAA infrastructure is our integrated Earth 
observation effort. NOAA, NASA and the Office of Science and Technology 
Policy (OSTP) serve as the lead agencies for the Federal Government in 
developing our U.S. integrated Earth observing strategy. In addition, I 
serve as one of four intergovernmental co-chairs of the effort to 
develop the Global Earth Observation System of Systems. Building and 
maintaining state-of-the-art satellite programs is an important 
component of NOAA's integrated observation efforts. An increase of $25 
million in the Polar Operational Environmental Satellite (POES) program 
continues support for development and acquisition of polar-orbiting 
weather satellites to improve weather forecasting and our understanding 
of the climate. This increase will allow NOAA to complete acquisition 
of this series of polar satellites and install and maintain instruments 
important to U.S. Government interests on the European MetOp partner 
satellite. Following the completion of the POES program, it will be 
replaced by the tri-agency National Polar-orbiting Operational 
Environmental Satellite System (NPOESS). This transition is expected in 
2013. We will continue to partner with the Europeans on their MetOp 
satellite as NPOESS replaces our current POES satellites.

Improving Weather Warnings and Forecasts
    Severe weather events cause $11 billion in damages and 
approximately 7,000 weather-related fatalities yearly in the United 
States. Nearly one-third of the economy is sensitive to weather and 
climate. Realizing this, NOAA seeks to provide decisionmakers with key 
observations, analyses, predictions, and warnings for a variety of 
weather and water conditions to help protect the health, lives, and 
property of the United States and enhance its economy. Increased 
funding of $2 million will accelerate research to improve hurricane 
intensity forecasts through targeted research for new models and 
observations. Another $3 million will support the operations and 
maintenance of 15 hurricane data buoys in the Caribbean, Gulf of 
Mexico, and the Atlantic Ocean. Finally, NOAA continues to strengthen 
the U.S. Tsunami Warning Program with an increase of $1.7 million to 
deploy additional deep ocean buoy (DART) stations. Strengthening the 
U.S. Tsunami Warning Program provides effective, community-based 
tsunami hazard mitigation actions including required inundation flood 
mapping, modeling, forecasting efforts and evacuation mapping, and 
community-based public education/awareness/preparedness for all U.S. 
communities at risk.

Climate Monitoring and Research
    Society exists in a highly variable climate system, and major 
climatic events can impose serious consequences on society. The FY 2008 
Budget Request contains investments in several programs aimed at 
increasing our predictive capability, enabling NOAA to provide our 
customers (farmers, utilities, land managers, weather risk industry, 
fisheries resource managers and decisionmakers) with assessments of 
current and future impacts of climate events such as droughts, floods, 
and trends in extreme climate events. NOAA is building a suite of 
information, products and services to enable society to understand, 
predict, and respond to changing climate conditions. These activities 
are part of the U.S. Climate Change Science Program and are being 
conducted in collaboration and coordination with our important 
interagency partners including NASA, NSF, and the Department of Energy. 
We will continue to expand and improve access to global oceanic and 
atmospheric data sets for improved climate prediction and development 
of climate change indicators. NOAA will support the critical National 
Integrated Drought Information System with increases of $4.4 million to 
develop an integrated drought early warning and forecast system to 
provide earlier and more accurate forecasts of drought conditions. This 
request also supports the Administration's efforts to create a U.S. 
Integrated Earth Observation System. With an increase of $0.9 million, 
we will support research on water vapor to refine climate models. In 
support of the Ocean Research Priorities Plan, NOAA will enhance our 
understanding of the link between ocean currents and rapid climate 
change with an increase of $5 million in support of research on this 
topic. Finally, an additional $1 million in funding will provide 
additional computational support for assessing abrupt climate change.

Critical Facilities Investments
    The FY 2008 President's Budget Request also includes important 
increases for critical facilities, necessary to provide a safe and 
effective working environment for NOAA's employees. Of particular 
importance this year is the $3 million funding increase to begin design 
of a replacement facility at the La Jolla Southwest Fisheries Science 
Center. NOAA is also requesting $20.3 million for continued 
construction of the new Pacific Region Center on Ford Island in 
Honolulu, Hawaii. This increase in funding will allow NOAA to complete 
the exterior renovation of one of the Ford Island buildings, a crucial 
next step in the construction process.

NOAA's Legislative Initiatives
    We appreciate the Committee's interest in reauthorizing the 
Hydrographic Services Improvement Act, and we thank Senators Inouye and 
Stevens for introducing S. 1584 on behalf of the Administration. We 
support enactment of S. 1584, the Hydrographic Services Improvement Act 
Amendments of 2007, and look forward to working with the Committee to 
reauthorize this important legislation.
    The Hydrographic Services Improvement Act (HSIA) was first enacted 
in 1998 and amended in 2002. The Administration's proposed bill to 
reauthorize the HSIA was drafted to better ensure safe, efficient, and 
environmentally sound marine transportation, and to enhance and promote 
international trade and interstate commerce vital to the Nation's 
economic prosperity via the Marine Transportation System. The 
Administration's bill clarifies the importance of NOAA's hydrographic 
data and services not only to navigation but also to habitat 
conservation, coastal resource management, emergency response, and 
homeland security.
    NOAA provides the Nation with nautical charts, as well as 
information on tides, sea surface water levels, and shoreline and 
geodetic positioning. NOAA's primary area of responsibility for 
charting is the U.S. Exclusive Economic Zone, an area including 3.4 
million square nautical miles and 95,000 miles of national shoreline. 
NOAA's hydrographic and shoreline mapping programs deliver precise 
depths and positions of coastal features. The remote sensing 
technologies used reveal hazards to navigation such as rocks, wrecks 
and changes in man-made features. To aid 21st Century navigation, NOAA 
is now building a suite of Electronic Navigational Charts comparable to 
the paper nautical charts for U.S. waters. NOAA's tide and current 
measurements along with Physical Oceanographic Real Time Systems and 
coastal ocean forecasts inform mariners about changing weather and 
navigation conditions. NOAA's work on high accuracy positioning, using 
the Global Positioning System, delivers centimeter-level accuracy to 
navigate hazards and avoid overhead obstructions, such as bridges. 
Should an emergency occur, such as a hurricane or vessel collision, 
NOAA responds rapidly with surveys to find navigation hazards and 
reopen ports to maritime traffic, and with scientific support for 
hazardous material spill response and remediation.
    The purpose of the Administration's bill is to reauthorize the HSIA 
for 5 years, and make changes to better ensure safe, efficient, and 
environmentally sound marine transportation and commerce. The marine 
transportation system is becoming increasingly congested, with the 
volume of international maritime commerce expected to double within the 
next 20 years. The programs and activities authorized by the HSIA also 
play an important role in the national response to natural and man-made 
disasters. For example, NOAA experts discovered the submerged wreckage 
of TWA Flight 800, took some of the first aerial images of Ground Zero 
after 9/11, and provided a substantial and vital response to hurricanes 
Katrina and Rita, including surveying affected waterways to facilitate 
the reopening of 13 major ports to commerce and relief efforts.
    In addition to the Hydrographic Services Improvement Act Amendments 
of 2007, the Administration, through the Department of Commerce, has 
also transmitted two additional legislative proposals: the National 
Offshore Aquaculture Act of 2007 and the Coral Reef Ecosystem 
Conservation Amendments Act of 2007. Again we thank Senators Inouye and 
Stevens for introducing these bills on behalf of the Administration, as 
S. 1609 and S. 1583, respectively. Enactment of each of these bills is 
a priority for NOAA and the Department of Commerce. We appreciate the 
actions taken by Members of the Committee to begin work on these pieces 
legislation and look forward to working with you to enact these 
important pieces of legislation in the 110th Congress.

Conclusion
    NOAA's FY 2008 Budget Request provides essential new investments in 
our priority areas while maintaining critical services, reflecting 
NOAA's vision, mission, and core values. The work NOAA accomplished in 
2006 impacted every U.S. citizen. We will build on our successes from 
last year, and stand ready to meet the challenges that will surface in 
FY 2008 and beyond. NOAA is dedicated to enhancing economic security 
and national safety through research and accurate prediction of weather 
and climate-related events, and to providing environmental stewardship 
of our Nation's coastal and marine resources. That concludes my 
statement, Mr. Chairman. Thank you for the opportunity to present 
NOAA's FY 2008 Budget Request. I am happy to respond to any questions 
the Committee may have.

    Senator Cantwell. Thank you, Admiral Lautenbacher. And I 
know my colleagues--we have a busy morning here, with an 
upcoming vote--but I'm sure it's delaying some of my 
colleagues, but they will have the opportunity to submit 
questions for the record, and, if you could help us in 
answering those, we appreciate it very much.
    I wanted to talk, first, about the National Weather Service 
CONOPS program, which is the Concept of Ocean--I mean, a 
Concept of Operation Initiative. Now, I understand there has 
been a lot of discussion and controversy around what was 
originally a proposal to consolidate some of the weather 
service resources, that led some to be concerned that that 
consolidation might lead to less staff and less ability to 
track impending severe weather situations. Can you elaborate on 
where we are with that, and what the budget reflects, and what 
your management of that particular program reflects, as far as 
a priority?
    Admiral Lautenbacher. Yes, thank you, Madam Chair.
    I--as soon as it--this was brought to my attention, I 
initiated a review of progress on that initiative, what the 
goals were, where it was, and where it stood. I reviewed it 
with independent folks, and looked at it, and we have since 
stopped all work on that program. I believe that some of the 
concepts, at the beginning of it, to try to improve our 
products and services, were well thought out, but some of the 
issues that came up, in terms of trying to deal with it, were 
not well thought out and constructed. So, it is--has been 
canceled. I've put out a very firm directive that that is not 
to be discussed in the terms that it was built in before. We 
are commissioning a study from the NRC to look at expanding 
technologies and new services, and having an unbiased outside 
scientific body look at that. We expect that report to be 
available next January.
    Senator Cantwell. One of the points of your budget request 
is actually a plus-up in this area--I think, about a 22 percent 
plus-up--but I think that--I don't know if that's a reflection 
of that technology, but one of the things that have been 
pointed out in this proposed consolidation, I think, of 
resources, was a staffing issue, particularly for over-the-
night observations. And I think what's at stake here is that 
minutes, in a warning system, can save hundreds of lives. So, 
we're not--you're sure that there is no continued discussion of 
programs that would leave some of these severe weather 
observation programs with only one resource, someone to 
constantly do data entry, and leave less on the observation 
side.
    Admiral Lautenbacher. I can assure you that, after years in 
the Navy, I do not believe in ever having one person on duty to 
do anything. So, there is no intention on my part to approve 
anything that will ever cut down on the ability to have viable 
backups and viable forecasting capability on station 24 hours a 
day, and that's what I have told the National Weather Service.
    Senator Cantwell. So, just to clarify, you believe in 
acquiring data, but also in having observation staff.
    Admiral Lautenbacher. Absolutely. Remember, forecasting is 
an art, not a science. It--the forecasts that you get, from 
hurricanes to tornados, come from forecasters, not out of 
computers.
    Senator Cantwell. Thank you.
    I want to ask about the satellite situation and investment 
in satellite capabilities, moving forward. I think we're at a 
little bit of a disagreement, from a budget perspective, of 
where we need to go to implementing that. You and I also had a 
conversation about just the amount of information and 
responsibility already with weather and NOAA and potentially 
other things that the agency could be doing as it relates to 
climate change. But one of these opportunities means making 
sure that we have the right technology. And the geosatellite 
system that you have now, we're concerned about making sure 
that we have, in the coming years, a more sophisticated 
technology than we have today. So, where are we in getting that 
budget request, to make sure that that upgrade in capabilities 
is there, not just for today's responsibility, but for what we 
think is a potential for NOAA to play an even greater role in 
severe weather change, climate change, and its impacts on the 
oceans?
    Admiral Lautenbacher. Yes, thank you.
    The satellite systems that we have, I want to assure the 
Committee and the American public that we have satellite 
systems in place today that are robust, complete, and have 
backups, and are ready to support all of the needs that we have 
for weather forecasting, from tornados to hurricanes to 
flooding.
    We have--there are two main systems that we use. The one is 
the geostationary system. There are two satellites in orbit 
that are relatively new. There is an on-orbit backup in that--
in position. There is also a secondary backup from a satellite 
that is still operating. So, we have very robust geostationary 
satellites on station today. That's the most important piece 
that we have. The lower-orbit satellite system, called POES, 
has on-ground backups, is operating today, and provides--that 
provides 90 percent of the information that goes into our 
models for hurricanes and for other weather forecasting. That 
system is robust and working.
    We have requested from Congress, for the last few years, 
money to support the next generation of those two systems. And 
I appreciate the mark. I believe the mark that came in supports 
the development of those systems. And they are designed to come 
online when the current systems run out of backups. If we can 
continue the funding and the progress on the programs that we 
have set up today, there is no issue with maintaining the basic 
satellite coverage and improving the position.
    Now, there has been discussion of a satellite called 
QuikSCAT----
    Senator Cantwell. But, without gaps in----
    Admiral Lautenbacher. Without gaps.
    Senator Cantwell. OK.
    Admiral Lautenbacher. Without gaps. There are no gaps in 
our basic systems. The plans and the money and all of the 
backup that we have sent up allow us to continue our continuous 
coverage and improve technology for these two basic satellite 
systems.
    The issue that we've seen in the paper recently is 
something about a satellite called QuikSCAT, which is an 
experimental satellite that NASA funded a number of years ago, 
which we are learning to use in our forecasting of hurricanes, 
at this point. In the last year, our forecasters have come and 
said, ``This looks like, really, a promising technology. We 
would like to pursue it.'' We started, immediately, to look at 
ways to introduce this technology into our current system. We 
have, right now, spent money, as soon as we got it from 
Congress, to start preliminary studies, to look at how to 
incorporate this technology, either as a free-flyer--a separate 
satellite system--or incorporated into these two systems that 
I've just talked about. So, we're very concerned, involved, and 
supportive of providing the latest technology for the American 
public.
    Senator Cantwell. Senator Snowe----
    Senator Snowe. Thank you.
    Senator Cantwell.--turn it over for your round.
    Senator Snowe. Thank you.
    Admiral Lautenbacher, in looking at the budget again it 
does represent a major decrease and, as the Chair indicated, 
you're talking about 3 years of consecutive decline, so it 
really does have a cumulative impact.
    If you look at the inflationary factor, that would be more 
than 6 percent, when you compare this year's costs versus what 
we can estimate for the future. So, how do you expect to 
implement your budget programs with a 2 \1/2\ percent decrease 
from the level enacted in Fiscal Year 2006, not even accounting 
for inflation? Furthermore, in looking at the Joint Ocean 
Commission's Initiative, they recommended $747 million in 
funding for NOAA above the 2006 level, which would be $4.6 
billion versus the $3.9 billion that you have proposed, and 
that does represent a 2 \1/2\ percent decrease from last year.
    So, how do you expect that your level of funding will 
adequately cover the responsibilities that you are obligated 
for?
    Admiral Lautenbacher. Let me add a little perspective to 
that. We have been able to, each year, increase the President's 
budget, so our requests to Congress have been increasing. And 
this year it was increased over $100 million. And that's an 
important benchmark.
    I realize--and I think we all realize--that, in the end, 
the budget is a compromise between what the President requests 
and what Congress believes is the right level for funding.
    Now, we will have difficulties with inflation and cost of 
doing business, and I don't--I can't dispute that. Part of the 
reason is that our actual budget that we've been spending has 
been capped at around $3.9 billion for the last 3 years, for a 
variety of reasons. But the good news is that, at least as 
we've been able to find money and support, working through our 
programs, we've raised the level, which is very close to what 
Congress approved last year. The marks that were approved this 
year are actually not that much different. I think we are doing 
better, in terms of arriving at something that is a national 
consensus on the levels of funding for NOAA. I will continue 
to--as you all know, I'm an enthusiastic advocate of every 
program we have, and I will work hard to continue to try to get 
the funding to ensure that we can promote and provide the 
programs the public needs.
    Senator Snowe. I understand. And obviously we're in a cost-
cutting era, and we have to look at where we can achieve those 
savings. It just seems to me that, given what Congress actually 
proposed, over and above what the administration did last year, 
the level of decrease is going to have an impact on some of 
these programs, without question. Looking at the Ocean 
Observing System, for example, the Ocean Commission recommended 
$138 million to initiate the National Ocean Observing System, 
escalating to a half a billion dollars within 5 years. And I 
recognize that that may be an extraordinary amount, at this 
point in time. But your request is for $2.5 million for the 
implementation system, and then, in addition, $11.5 million for 
the regional observations.
    So, how exactly is that going to work adequately in 
supporting this system? That seems to be a small amount, 
comparatively speaking, to the Ocean Commission's proposals.
    Admiral Lautenbacher. It is--it is a relatively small 
amount, but it is better than zero. We--which is what we have 
had for the last 4 years--we've been able to, first of all, 
develop an architectural plan that people will support, which 
requires a great deal of effort. We need to have regional 
associations which are fairly consistent in how they work 
together so we can have a national setup. And I think this 
takes some pressure off of Congress to look at extra funding--
extraordinary funding mechanisms to help us move forward. It 
represents a beginning of a coalescence of agreement on the 
need for an Integrated Ocean Observing System, which we know is 
strongly supported by the Ocean Commissions, and is now 
supported by the Administration.
    And so, I look forward to working with you in the future, 
and in this budget, to try to improve our ability to bring that 
system online.
    Senator Snowe. Well, I guess the point is that the 
Administration has relied on Congress to increase the budget. 
That's exactly what we did last year. Now the Administration 
has come in with a budget that's less than what we provided for 
last year. So, that's the position we find ourselves in. Now, 
we do that year in and year out, but I think it is important 
for the agency to indicate what is critical for more funding in 
the areas that it requires. The Ocean Observation System 
achieves savings, in the final analysis. Report after report 
has indicated that. We saw that in the Pacific Ocean, they did 
a report recently, and it saved a billion dollars annually, and 
the Woods Hole study, which I mentioned in my opening comments. 
The shipping industry saved, based on the report, $300 million, 
by revising their weather-based routing system in response to 
the real-time data that they were able to get. Not only from a 
financial standpoint, it represents a savings to the 
government, but also, in terms of lives saved, as well. And so, 
we have to make sure in this instance, that we give the kind of 
support to get this system underway, particularly now that we 
have the authorization. Hopefully, we can get it through the 
entire Congress. We have managed to get it through the Senate 
unanimously, but not in the entire Congress. Hopefully that 
course will reverse itself.
    I thank you for the support in getting it included in the 
agency's budget, and I hope that we can do more to make sure 
that we solidify this critical program for the entire country. 
It may be regionally based, in terms of where the systems are 
located, but it is to benefit the entire country and what we 
can anticipate for changes in climate and weather forecasting 
and conditions. So, I thank you for that.
    New England groundfishing, as you know, is very critical. 
As you know, we're in some extremely dire and challenging 
times. And this is another area that I think warrants 
tremendous support from NOAA, in terms of investments in 
cooperative research, for example, that I think is absolutely 
vital to serve as the underpinnings for any course of action 
that's taken. Now, the New England Fishery Management Council, 
last week, decided to table proposals that could have replaced 
the existing Days-at-Sea program, or at least examine it. I 
don't think the industry had--you know, they were looking at 
different proposals. The point systems, for example, was, you 
know, one proposal, and area management was another.
    The groundfishermen have an average of just 40 days at sea, 
and estimates suggest that levels could be reduced up to an 
additional 30 percent under Amendment 16 in 2009, leaving 
fishermen with just 33 days to make a living. Well, if the 
groundfishing industry is in a crisis, that will become a 
catastrophe, without question.
    So, I guess, what I am concerned about is: why don't we 
have any existing programs within the agency, given the 
magnitude of the impact of these regulations they're going to 
impose on the industry, and people's livelihoods? Why aren't 
there any existing programs within NOAA that could support 
additional research and also do an evaluation and examination 
of alternatives to days at sea, so that we have more 
information, better information, with which we can make these 
decisions?
    Now the Council delayed any decision, deferred it, because 
they didn't have enough time. But we don't have enough data, 
and I think that we should be doing everything that we can to 
examine potentially preferable systems to days at sea. Now, 
maybe there aren't any, but we don't know. And when you get an 
industry in a crisis, clearly it demands looking at ways in 
which we can find alternatives, and investing a sense of 
urgency in this situation, that certainly could help other 
situations across the country. Do we have any programs that 
could help in this regard, in a timely fashion? I'm not talking 
about years, here, because they're now contemplating Amendment 
16, in 2009, and they're devastated as they are. I mean, we're 
talking about 47 days at sea. I mean, it has really been having 
a major impact on the industry.
    Admiral Lautenbacher. I agree with everything you said. It 
does have a major impact, and it's very important.
    We have, in this budget, about $6 million to look at the 
research and the needs to try to devise these kinds of programs 
you're talking about, which are different than days at sea. So, 
this is an attempt to try to get more emphasis on it.
    We have a commitment to try to double the number of what's 
euphemistically known as the ``Limited-Access Privilege 
Programs'' across the Nation. We also have added some funding 
to increase the scientific staffs of the--or access to 
scientific information from the councils so that we can 
expedite some of the groundwork that's needed to do, to 
understand what those plans mean and how they would be brought 
into effect.
    So, I'm just as interested in doing this as--in an urgent 
fashion as you are, Senator, and we'll continue to try to do 
that.
    Senator Snowe. What would be the timeframe, for example, to 
get this type of information and analysis and assessment of 
alternatives? I mean, because that, number one, is critical. 
Second, you know, the Council indicated that they had to table 
their decision, because they had to implement a decision before 
the deadline. Do we have any flexibility in the deadline? 
That's another question that I'd like to ask, because I think 
this is truly having some devastating consequences. And we want 
to look at other alternatives to see if there are any 
possibilities other than days at sea, so that we have examined 
an array of options, and we know what is available, what isn't 
available. I understand that $6 million is targeted for the 
Limited-Access Privilege Programs, not non-IFQ programs. Is 
that true, too?
    Admiral Lautenbacher. I'm sorry, I missed the last----
    Senator Snowe. The 6 million is----
    Admiral Lautenbacher. It's for----
    Senator Snowe.--targeted for Limited-Access Privilege 
Programs, not non-IFQ programs. The $6 million that you 
referred to.
    Admiral Lautenbacher. Yes, but that money is--can be--could 
be used to try to work on alternative schemes to what we have 
today. So, when I used that euphemistically----
    Senator Snowe. OK.
    Admiral Lautenbacher.--that's what I mean. So, I don't--I 
can't give you--the Council just had their action. We're going 
to--we're going to review it and see what----
    Senator Snowe. OK.
    Admiral Lautenbacher.--we can do to help them get the 
resources they need, because we would like them to get through 
their analysis as quickly as possible, obviously. And so, let 
me get back to you----
    Senator Snowe. OK.
    Admiral Lautenbacher.--on what a----
    Senator Snowe. I would appreciate----
    Admiral Lautenbacher.--timeline would be for the results 
from this latest action, which just occurred.
    Senator Snowe. No, I appreciate that. And you understand 
the urgency----
    Admiral Lautenbacher. I do.
    Senator Snowe.--of the circumstances. Thank you.
    Admiral Lautenbacher. Thank you, sir--ma'am.
    Senator Cantwell. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Madam Chair.
    Senator Snowe, we are going, in July, to have a hearing--
and I think Chairman Inouye is going to do it at the full-
Committee level--on the overall question of the Earth Observing 
Systems, particularly with regard to the--with regard to the 
weather. We are trying to get that set for the date of July the 
11th. And, with your interest in this area, if you could be 
there with us, Chairman Inouye, in my capacity as the Space 
Subcommittee Chairman, is asking me to chair the meeting--and, 
of course, with Chairman Cantwell, as well--if you all could 
participate in that--because it goes far beyond just the narrow 
question of space, it goes to some of the questions I'm going 
to ask right now of the Admiral.
    Admiral of course we've got the problem with QuikSCAT. 
What's NOAA's plan for--well, let me say what QuikSCAT is, for 
everybody. It has been up for about 8 years. It has a 4-year 
life, and it has lived 4 years longer. It is operating today, 
giving us wind at the surface, which is a component of 
determining the direction and ferocity of a hurricane--of an 
inbound hurricane. It is one of the computations that is used. 
And, of course, from the satellite position, as opposed to a 
buoy--a buoy would get certain measurements, but right there. 
But you don't have thousands of buoys out there. We tried to 
get NOAA to have additional buoys. The satellite gives you 
those data points all over the ocean, which then go into their 
computers that make up the model.
    So, this little thing is like the Energizer Bunny, it just 
keeps going and going, but you never know when it's going to go 
on the blink. And, years ago, NOAA planned to have a 
replacement, called NPOES, N-P-O-E-S. NPOES was going to be 
many things to many people, and that's the problem. They loaded 
it up too much, and then they found that it wasn't going to 
work, and it got delayed, it got overpriced, et cetera, et 
cetera. And now, NPOES is somewhere in the middle of the next 
decade, like 2015-2016.
    So, Admiral, why don't you share for the Committee--What 
are NOAA's plans for a replacement of QuikSCAT, the quick 
satellite that is the scatterometer?
    Admiral Lautenbacher. Yes, thank you, Senator.
    As I--let me just mention again that the primary satellite 
systems that we have for weather forecasting or hurricane 
forecasting are online with adequate backups, and are working, 
and plans to continue these with increased technology are in 
place and on track. We are, as you mentioned--you asked the 
question about QuikSCAT, which is the experimental satellite 
that's been put up to try to use data from a scatterometer, 
which you mentioned, to improve our hurricane forecasting. We 
have found out, in the last year, from our forecasters, who 
have spent several years trying to learn how to use the 
information, that it is valuable. When we found that out, last 
June, we started an investigative Committee to look at 
replacing or incorporating that technology, which was not the 
preferred technology before that point, into the next systems, 
either as a free-flyer, which we think is the more interesting 
option, rather than incorporated on satellites which are 
passive satellites. The QuikSCAT is an active satellite, which 
needs to be--ensure that you don't over-flood the receptors on 
the satellites that are passive receivers.
    We have put in place a--as soon as we got money, we put in 
place a study with the Jet Propulsion Laboratory to give us 
options on how to replace the current QuikSCAT as quickly as 
possible. And that----
    Senator Nelson. And when is that? We have a limited time, 
we're going to vote on the cloture----
    Admiral Lautenbacher. I'm sorry. OK. We----
    Senator Nelson.--we're going on the cloture motion on the 
immigration bill, so----
    Admiral Lautenbacher. We're going to get----
    Senator Nelson.--when are you going to have a replacement?
    Admiral Lautenbacher. We're going to have the study in 
January of the next year, and then we're going to make a 
decision. If there's a good--it's--and we don't want to do--
have another NPOES, which you've talked about, so we've got to 
make sure that what we do is correct. We will make a decision, 
based on a JPL and the expertise that we get from the reviews, 
on whether to replace that satellite with--as it is----
    Senator Nelson. That a----
    Admiral Lautenbacher.--or go to another technology.
    Senator Nelson. OK. But that's a long way to get around to 
answering my question, which is, when are we going to have a 
replacement?
    Admiral Lautenbacher. It will take 3 to 5 years to replace 
the satellite, as it is. Now, what I want to mention is that we 
have--that satellite has just--is in good operating condition. 
We just talked with Mike Griffin the other day. It--we expect--
--
    Senator Nelson. Let's----
    Admiral Lautenbacher.--it to last another----
    Senator Nelson. Knock on wood. Let's hope----
    Admiral Lautenbacher.--to 4 years, but----
    Senator Nelson.--it keeps going.
    Admiral Lautenbacher.--but we also have in place, in orbit 
today, another scatterometer. It's on the Joint U.S.-European 
Polar Orbiting Satellite System. That scatterometer will be in 
operation through the year 2018 to 2019.
    Senator Nelson. And does that scatterometer replace, fully, 
this scatterometer?
    Admiral Lautenbacher. It has slightly different 
specifications on it, but neither scatterometer actually meets 
the needs of our forecasters.
    Senator Nelson. It's----
    Admiral Lautenbacher. It's all below the levels.
    Senator Nelson. It does. Does the data that goes into the 
computers from the QuikSCAT, which is 4 years beyond its life--
its planned life--does what you have up there now replace that? 
Does it replace it by half? Does it replace it a quarter? What 
does it replace?
    Admiral Lautenbacher. We don't----
    Senator Nelson.--in the determination, at the end of the 
day, to get the data for accuracy for the National Weather 
Service and the National Hurricane Center, to predict the path 
and intensity of a hurricane.
    Admiral Lautenbacher. We don't know the answer to that 
question yet, because that instrument was just launched a few 
months ago. I have directed the Hurricane Center and our 
researchers to take the information and start putting it into 
the models, as we have had to do with QuikSCAT, to try to find 
out how much it does replace, or doesn't replace. We don't know 
the answer to that question. We do know we have a scatterometer 
that's going to last for another 10 years, should there be a 
problem with the one that we have today. We are also looking at 
other ways to--and remember, this is data to one model we're--
we're talking about model. The forecast is done by forecasters 
looking at whole sets and varieties of information.
    Senator Nelson. Admiral, there is a huge debate in the 
weather community over what you said is accurate, or not. You 
are representing one point of view. There is another point of 
view. You just stated that it was going to take 3 to 5 years, 
once you decide to build another replacement for QuikSCAT. You 
said, earlier, that you're going to have a study, and then 
decide, then you've got to come and get the appropriations 
here, it's got to go through that process. So, we're in 
hurricane season 2007. At the earliest, we could get the money 
in 2008, and another 3 to 5 years, you're now looking at 2013, 
if the decision was, in fact, made. And the question is, Is the 
Nation unprotected by NOAA having flubbed the dub with NPOES? 
And are we in a situation that we are in an unprotected 
position? And what are we going to do about it?
    Admiral Lautenbacher. We are clearly not in any position 
like that, Senator. We have very good satellite systems that 
are up there today. They produce 90 percent of the information 
that goes into our models and our predictions. We have, in 
process, a set of satellites that are going to replace those, 
that are working. NPOES is on schedule, it's back on track. 
Until a year ago, the technology that everybody wanted was 
conical microwave imaging to get the wind field on the surface 
of the Earth. In the last year, people have decided that maybe 
the scatterometer will work better, so now we are looking at 
both, we are going to build--we are going to build a microwave 
imager, as well, to put on the NPOES satellite, and there is 
also a WINDSAT up there today, which has that technology on it, 
which is being tested. I've also directed that that be put into 
the models, as well, to look at--see what's going on with it.
    So, we have a number of backups in place to help us 
continue our progress. We--you have to look at the progress on 
hurricane forecasting. It's improved 3 \1/2\ percent year--per 
year for the last 20 years, because of a variety of 
observational inputs--and thanks to Congress for helping us for 
those inputs--our aircraft, which make up the most important 
part of determining the track, and our modeling, which--where 
we've been able to use higher-power computers, better 
representations of the physics of the formation of vortices 
that begin the hurricane. So, we have had improvements over 20 
years, and I suspect that we're going to have an improvement 
this year to--thanks to the buoy systems you've talked about 
and the new instruments and the new aircraft that we're putting 
up, as well.
    So, there's a variety of--defense-in-depth, I would call 
it, from a military point of view, that we have. And no one is 
unprotected, at this point, Senator.
    Senator Nelson. Admiral, I represent a state that cannot 
afford a mistake, to have the very best data in accuracy of 
predicting the path of a hurricane. And I'm going to ride this 
one hard. There's no excuse for NOAA and the other agencies to 
have goofed, as they have with NPOES. NPOES could not even be 
considered before 2015. If we're going to get a satellite up--
when, by the way, do you think that you will have the 
recommendation and the plan for replacing QuikSCAT? When can 
you come to the Congress so that we can go to work on that?
    Admiral Lautenbacher. I'm hoping that we can have something 
for the 2009 budget. And I have enough money to continue that 
process to ensure that we can make a--what I would call a 
reasoned decision that we're not wasting money, and we're 
providing the best protection that we can get.
    Senator Nelson. Thank you, Madam Chairman. And let me just 
say that I can't tell you the intensity--Admiral, you and I 
have discussed this privately--I've shared with you, 
privately,--the intensity of the feeling of the people that 
live in the path of a hurricane to have the most reliable and 
accurate data.
    Thank you, Madam Chair.
    Senator Cantwell. Well, thank you, Senator Nelson, for your 
line of questioning and for arranging for a full-Committee 
hearing on this. Prior to you arriving, both of us--Senator 
Snowe and I had brought this issue up. Admiral Lautenbacher 
assured us that we weren't going to see any gap in service 
during that time period. So, I think having a much more 
illuminating hearing, just specifically about the technology, 
is vitally important. We want to make sure that not only is it 
the right technology and robust enough, that its deployment is 
at a time and an implementation that does leave no gap in 
service.
    So, we will look forward to participating in that, I 
believe, July 7--or----
    Senator Nelson. It's the eleventh.
    Senator Cantwell.--the eleventh--July 11 hearing, and 
discussion on that.
    And, plus, I also believe that the implementation and 
technology decisions, given tight budget times--we can't make 
mistakes, either, in finding out later that there was something 
that was more robust--leaves us without the ability to go back 
and make that acquisition, too. So, let's make sure we're 
getting it right and getting it implemented. And so, I applaud 
you for your concern.
    Admiral Lautenbacher, if I could go through a couple of 
other issues. You and I had a chance to talk, in my office, 
about the Tsunami Warning System and its buoys and its 
upgrades, and I will not go further on that, although I think 
we probably will have some more conversations, to make sure 
that that system is reaching its--with the second version of 
deployment of what I'm calling ``smart tsunami buoys''--
reaching its achieved performance, and that we aren't seeing, 
again, gaps in--or, let's say, breakdowns in buoys that have 
been deployed, and then aren't working, and then aren't giving 
communication and data back. So--but, at some point, maybe you 
and I--we can have, in a--follow-up written questions, answers 
to that.
    But radar is an important issue. And can you explain why 
the coastal regions of Washington and Oregon have significantly 
worse radar coverage than the rest of the continental United 
States? And what can we do to protect the fishermen in those 
areas who are obviously practicing their trade and rely on that 
important system for information?
    Admiral Lautenbacher. There are radar shadows, obviously, 
on the Pacific--on the Olympic Peninsula Coasts. So, while we 
have radar coverage, they are altitude-limited by the shadows 
that the mountains cast.
    Our systems were set up to cover what I would call the most 
populated, important areas of where people--most of the people 
live, and where our airports are. So, there are some places 
that don't have complete coverage. The options could be smaller 
radar systems, such as the weather channels use today, to put 
in place, that have smaller coverage. That's about the only 
thing that could be done, at this point, is to have some kind 
of another radar system put in place for a smaller area, beyond 
the shadow of those mountains.
    Senator Cantwell. And that's something that NOAA could do 
within its budget?
    Admiral Lautenbacher. We do not have that planned in our 
budget, at this point, no.
    Senator Cantwell. Well, I think we need to look at making 
sure that there aren't gaps in service, particularly in--we 
don't, in the Northwest, have as severe a weather forecast as 
my colleague from Florida was talking about, but I think we 
need to understand where there are gaps in services, and how 
those are being met with, and, I think, figuring out whether 
smaller systems can add to full coverage. So, we'll look 
forward to trying to resolve that issue with you.
    I see many participants from the salmon recovery efforts in 
the Northwest in the audience, and wanted to ask you about the 
proposed plan to meet the BiOp--the Federal BiOp requirements 
on endangered salmon and steelhead, and to make sure that we 
are going to continue to execute that plan, working with a 
variety of parties. I know that you've submitted a preliminary 
plan. Obviously, we have a Federal court review, wanting to see 
that we have an adequate plan on salmon recovery, or we're 
going to end up back in the courts on this issue. So, how are 
we proceeding in making sure that all parties are participants 
in the development of what will meet a Federal standard for 
salmon recovery?
    Admiral Lautenbacher. We have funding to continue to 
support our partnership with the various entities in the 
Northwest, and we continue to work on the BiOp that we have to 
ensure that we can--and we're looking at the Congressional 
review after the late--or judicial review after the latest 
Supreme Court decision. This continues to be an extremely 
important facet of our Northwest issues, and we will continue 
to work to provide whatever funding we can in the partnership, 
and develop recovery plans, and meet the needs of the recovery 
plan.
    Senator Cantwell. I think you just said the optimum words, 
though. With the reduced funding, do you think that you can 
meet and come up with a plan that will meet----
    Admiral Lautenbacher. I----
    Senator Cantwell.--Federal requirements? That's my 
question.
    Admiral Lautenbacher. Yes. I believe we have enough funding 
in our budget to meet the requirements that will come up, and--
--
    Senator Cantwell. Even though we've seen a significant 
decrease in those funds in the last several years.
    Admiral Lautenbacher. And I would--I don't--I hesitate to 
point out that that was--that cut was originated by Congress, 
originally, so it was very hard for me to go back and get any 
more money in the Salmon Recovery Fund, if you're--if that's 
what you're talking about, the State money that's distributed. 
So, we have been able to meet----
    Senator Cantwell. I'm talking about overall budget 
requests, from where they've been, say, over 7-8 years.
    Admiral Lautenbacher. The Salmon Recovery Fund is at the 
levels that Congress set it at a couple of years ago, and it 
continues to be supported at those levels.
    Senator Cantwell. I think that there's a difference of 
numbers, but we'll get back to you----
    Admiral Lautenbacher. OK.
    Senator Cantwell.--as it relates to--it's been historically 
funded at a much higher rate than we are currently funding it 
at, and my point is that the--below historical lows, that--the 
question is, what does it take for us to meet that Federal 
mandate on coming up with a concrete plan?--or we'll be back to 
a much more aggressive Federal process for salmon recovery. I 
think that, as I mentioned in--earlier, that things are working 
well with a collaborative effort, but they need to have the 
resources, at the local level, to implement that plan. So?
    We are looking forward to seeing your recovery plan for the 
orca whale population. Do you have sufficient funds and the 
critical research information to provide that? And when will we 
see that particular recovery proposal?
    Admiral Lautenbacher. We do believe there is sufficient 
money to complete that recovery proposal. We're expecting that 
it will be finalized by the end of this year.
    Senator Cantwell. The integration of that plan with other 
Federal agencies--I understand that the Navy is planning an 
exercise off the coast, to test their sonar capabilities. In 
the past, we have seen that those sonar capabilities have an 
impact on the orca population. Will your mitigation plan 
include discussion and recommendations on the Navy's sonar 
system?
    Admiral Lautenbacher. I can't sit here and prejudge what 
the exact plan will look like, but I can----
    Senator Cantwell. But will it----
    Admiral Lautenbacher.--assure you that it is taking into 
account the issues of sonar transmissions, because that is part 
of the public record and part of what we're going to deal with 
as we look at the plan. So, that will be specifically taken 
into account----
    Senator Cantwell. And you will----
    Admiral Lautenbacher.--in the plan.
    Senator Cantwell.--give us a recommendation, one way or 
another? I'm not saying--I'm not prejudging what that 
recommendation is, but you will address----
    Admiral Lautenbacher. We will address it.
    Senator Cantwell.--what have been the concerns of many 
about the sonar impact on that population.
    Admiral Lautenbacher. We will address that--that fact--
directly.
    Senator Cantwell. And, last--I don't know if my colleague 
has further--well, let's--I know we have a vote, so I'll let 
Senator Nelson jump in, here.
    Senator Nelson. Admiral, on a different subject, the NOAA 
budget cut the research on red tide from $21 million to $10 
million--$21 million was back in 2005, and it's down to $10 
million--in extramural research. We've had a phenomenon, the 
last several years, particularly on the west coast of Florida, 
of enormous problem with all kinds of physical, medical effects 
on people from the red tide. And I want to know if there's any 
way, in these harmful algal blooms, that we can get that 
research up.
    Admiral Lautenbacher. The harmful algal bloom budget, and 
the program, is very important to us. We have a number of 
efforts going on--in west Florida, in particular--to try to 
deal with it. I believe our budget that we have today can 
continue those efforts. We have been given some funds, 
occasionally over the years, on special projects that Congress 
has considered very important, and, obviously, we want to work 
with you on--in any way we can deal with those issues. But we 
have funds in there today to help continue the program. We 
have--first of all, we put out month--or weekly bulletins to 
all the managers up and down the coast. We provide ``harmful 
algal bloom'' forecasts. So, we're at the point now where we 
can tell people when it's going to happen, warn people. We also 
have programs that are looking at the research onto what it 
takes to find out how they got started, to begin with, the 
causes, and then look at trying to mitigate that in some way, 
so we can eventually work to the process where we don't have 
these things. But that's going to require more in-depth 
research for the causes and for mitigation effects. But there 
are several projects that are funded in the budget that will do 
that.
    We also look to expanding these ``harmful algal bloom'' 
forecasts throughout the Gulf into the Texas region, as well, 
given--with the funding that we have.
    Senator Nelson. So, you want to stick with the $10 million 
in that extramural research, instead of increasing.
    Admiral Lautenbacher. I'm here to support the President's 
budget, Senator.
    Senator Nelson. Thank you.
    Senator Cantwell. Admiral Lautenbacher, one more question 
about operationalizing climate change and the science and 
information. How can NOAA play a larger role on that?
    Admiral Lautenbacher. I think that there is a need to have 
what I would call definitive climate information from a source. 
There has been much talk over the years about a National 
Climate Service and what that would entail. I think we're 
matured to the stage--we didn't talk about more of the 
satellite issues, but we also have climate sensors to put on 
satellites, as well. The climate needs to be defined in a way 
that we have reliable, verifiable government information that 
comes from one agency, or whatever is decided, that is 
operational, that is something--this is the Government Climate 
Forecast, whatever it is. Today, we have a consortium of 
agencies that work on it, which is important, and we've done a 
lot of good work--with NASA, with Energy, with Agriculture, 
with Interior, with the Commerce and NOAA--working together on 
the research end of it. What I'm suggesting is that it's 
probably time to think about an operational component that 
provides regular, verifiable reports, which are government 
data, in which I'm subject to the questioning of the Committee. 
It's open. It becomes something that's public record and can be 
believed and trusted by everyone.
    Senator Cantwell. And you think NOAA could play a larger 
role in that.
    Admiral Lautenbacher. I think that NOAA is certainly--would 
be a good candidate to look at ways to work on this, and I'm 
certainly always--I have been interested in this for a long 
while.
    Senator Cantwell. Well, thank you, Admiral Lautenbacher, 
for your testimony today and answering our questions. As you 
can see, the Committee members that showed up have very intense 
regional issues, but they are national in scope, as well. So, 
we'll look forward to continuing to work with you on this 
budget authorization legislation.
    This Subcommittee meeting is adjourned.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    This year the National Oceanic and Atmospheric Administration 
(NOAA) is celebrating the 200th anniversary of the creation of its U.S. 
Coast and Geodetic Survey, or the ``Survey of the Coast'' as it was 
called when created by President Thomas Jefferson in 1807. As our 
Nation's first scientific agency, this agency provided nautical charts 
to the maritime community, and laid the foundation for the standard set 
today for safe navigation of our waterways.
    Ironically, for the past several years, the budget for hydrographic 
services has been insufficient, and at the current rate, the backlog of 
surveying critical areas will not be complete until 2020. This year's 
budget proves no different. Unfortunately, the budget for hydrographic 
services is simply a reflection of the systemic underfunding of NOAA's 
critical programs during the past several years.
    Senator Stevens and I have been longtime supporters of NOAA and 
have spent our careers working to improve its capabilities and advance 
its service to the Nation. NOAA is a remarkable, national resource, 
particularly when one compares the accomplishments of its missions 
against the agency's budget.
    Whether it is accurate forecasting for landfall of a hurricane, or 
weather forecasting of early freezes, all of which have significant 
impact on personal safety and the economy, or fisheries management, or 
climate research, these are all missions that have an impact on society 
today and for future generations. Meanwhile, NOAA's budget has remained 
stagnant; specifically, this is the third year in a row that the NOAA 
budget reflects level funding.
    The Joint Ocean Commission Initiative released a report card 
earlier this year to assess how well we are collectively doing to 
implement the recommendations of the U.S. and Pew Ocean Commissions. 
They once again rated progress in increasing ocean funding as an ``F.''
    It is clear that we are at a crossroads. The growing number and 
severity of problems compromising the health of our coasts and oceans 
is obvious. The science of global warming is clear.
    The delays and cost overruns of our satellites are unacceptable. I 
look forward to hearing Admiral Lautenbacher's assessment of how all of 
these developing needs can be addressed given current budgetary trends.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                Vice Admiral Conrad C. Lautenbacher, Jr.

General Budget
    Question 1. While I understand that you support the President's 
budget, does this year's FY08 budget request give you the funding you 
need to do all the things required of NOAA by Congress? If not, what do 
you estimate you would need?
    Answer. The FY 2008 President's Budget Request provides a 
sufficient amount of funds for NOAA to carry out its statutorily 
mandated responsibilities while addressing our highest priorities.

    Question 2. Admiral, we understand that the appropriations 
subcommittee on Commerce, Justice, and Science marked up a spending 
bill this week that would provide NOAA with $4.2 billion for FY 2008. 
We further understand that up to $795 million of this would be used to 
implement the recommendations of the Joint Ocean Commission Initiative. 
Can you please tell me how NOAA would prioritize implementing these 
recommendations?
    Answer. The priorities outlined in U.S. Ocean Action Plan are 
NOAA's top priorities. NOAA is requesting a total of $123 million in 
spending directly related to the U.S. Ocean Action Plan in the FY 2008 
President's Budget, including $60 million for enhanced ocean science 
and research, $38 million for protection and restoration of marine and 
coastal areas, and $25 million for sustainable use of ocean resources. 
The increases will allow NOAA to continue to implement several priority 
management goals, including vessel tracking and enforcement, and 
ecosystem characterization for the recently designated 
Papahanaumokuakea Marine National Monument. Funding is included to 
implement a number of requirements of the recently reauthorized 
Magnuson-Stevens Fisheries Conservation and Management Act, including 
improvements in data collection of recreational fishing information, 
and the development of Limited Access Privilege Programs that provide 
exclusive privileges to harvest a quantity of fish. The President's FY 
2008 budget request also includes funding that will allow NOAA to 
develop initial operating capability for regional components of the 
Integrated Ocean Observing System (IOOS). To date, 73 of the 88 actions 
from the U.S. Ocean Action Plan have been met, and a key factor in 
implementing the U.S. Ocean Action Plan actions has been NOAA's 
commitment to invest in moving the plan forward.

Satellites
    Question 1. As our current climate and ocean monitoring satellites 
age and begin to fail, how does NOAA plan to mitigate the loss of the 
critical weather-related and climate data they provide?
    Answer. NOAA has a continuous planning process to develop its next 
generation satellites to provide data on weather, satellite 
oceanography, and climate. NOAA's plan is to provide uninterrupted 
satellite data through at least 2026 from the next generation 
geostationary satellites, known as the Geostationary Operational 
Environmental Satellite R-Series (GOES-R), and the next generation 
polar-orbiting satellites, known as the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS). Through the NPOESS 
and GOES-R systems, NOAA has been working closely with the National 
Aeronautics and Space Administration (NASA) and, where applicable, the 
U.S. Air Force to satisfy requirements of the National Weather Service, 
National Ocean Service, and the NOAA Climate Program.
    In response to a request from the White House Office of Science and 
Technology Policy (OSTP), NOAA has been working with NASA to identify 
options to mitigate the loss of climate sensors from the Nunn-McCurdy 
certified NPOESS program. NOAA and NASA requested assistance from the 
National Research Council (NRC) Space Studies Board to assess the state 
of Earth observations, including the impact of the 2006 changes to the 
GOES-R and NPOESS programs. A special NRC group of experts has assessed 
the impact on climate monitoring capability of the NPOESS Nunn-McCurdy 
certified program. NOAA and NASA are currently preparing a mitigation 
assessment for the Executive Office of the President.

    Question 2. Does the current state of the NOAA satellite program 
pose a threat to our ability to research, monitor, and understand 
climate change in the coming years?
    Answer. The current state of NOAA's satellite programs does not 
pose a near-term threat to our ability to research, monitor, and 
understand climate change. NOAA's Polar-orbiting Operational 
Environmental Satellites (POES) continue to provide invaluable global 
data to support climate monitoring. A major improvement in the quality 
of data to measure select climate parameters will occur with the launch 
of the National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) Preparatory Project (NPP) in 2009 and the first NPOESS 
satellite in 2013.
    In addition to using POES, NOAA is currently making full use of 
National Aeronautics and Space Administration (NASA) research 
satellites, the Department of Defense's Defense Meteorological 
Satellite Program, and international agency collaborations to satisfy 
the climate data requirements. NOAA continues to work with NASA to 
implement a plan to minimize the gap in climate data record, including 
preparing a mitigation assessment for the Executive Office of the 
President. As discussed in the joint NOAA-NASA July 10, 2007 report 
submitted to Congress pursuant to Pub. L. 109-155, NOAA and NASA are 
examining re-establishing the Operational Satellite Improvement Program 
to refine instrument requirements and plan for future NOAA operational 
missions that build on NASA research activities.

Climate Change, Hurricanes, and Ocean Acidification
    Question 1. Can you please detail specifically how the proposed 9 
percent cut to NOAA's climate change programs would be implemented and 
specifically what programs would be affected? Why exactly were these 
cuts made?
    Answer. In FY 2008, NOAA has requested $239.8 million for climate-
related activities. This figure is 8.3 percent less than the $261.5 
million NOAA will spend on climate-related activities in FY 2007. It is 
important to note that the President's FY 2008 Budget request for 
climate-related activities reflects an increase of $13.3 million over 
the President's FY 2007 request.
    Examples of the major programs funded in the FY 2007 spend plan 
that are not included in the FY 2008 President's Budget include 
approximately $15 million for satellite climate sensors. The 
Administration included this funding in FY 2007 to maintain some 
options while evaluating whether climate sensors that had been 
demanifested (removed) from the Nunn-McCurdy certified NPOESS program 
should be restored. The Office of Science and Technology Policy (OSTP) 
coordinated a joint NOAA-National Aeronautics and Space Administration 
(NASA) study to assess the impact of the demanifested sensors. NOAA and 
NASA are preparing a mitigation assessment for the Executive Office of 
the President.
    In addition, in FY 2007, approximately $4 million in one-year 
funding was included for the Integrated Ocean Observing System (IOOS) 
climate sensors. The remainder of the additional FY 2007 funding was 
for climate-related grants and contracts. The President's FY 2008 
budget also includes a $1.3 million reduction to base funding for the 
Global Climate Observing System to partially offset the climate-related 
increases requested, and no other cuts to climate funding were made.
    The FY 2008 budget request includes $239.8 million for climate-
related activities, and this figure includes:

  <bullet> $20.5 million for drought-related activities, $8.4 million 
        of which is specifically for the National Integrated Drought 
        Information System (NIDIS) in support of the NIDIS bill signed 
        by the President in December 2006;

  <bullet> NOAA's contribution for the Climate Change Science Program, 
        of which $46 million is for programs that directly support the 
        Climate Change Research Initiative; and

  <bullet> $11.2 million for understanding and predicting abrupt 
        climate change, which includes a $5 million increase for 
        studying the Atlantic Meridional Overturning Circulation, i.e., 
        the ``ocean conveyor belt''.

    Question 2. Can you elaborate on what NOAA is doing to develop a 
clear, coherent strategy, for improving our understanding of the 
science underpinning the interactions of ocean and climate? Will parts 
of this strategy address how we equip Federal, state and local managers 
to mitigate the impacts of climate change in coastal areas?
    Answer. The Administration's U.S. Ocean Action plan provides the 
foundation to advance the next generation of ocean, coastal, and Great 
Lakes policy. The National Science and Technology Council's Joint 
Subcommittee on Ocean Science and Technology (JSOST) recently completed 
Charting the Course for Ocean Science in the Next Decade: An Ocean 
Research Priorities Plan and Implementation Strategy, which presents 
research priorities focusing on the most compelling issues in key areas 
of interaction between society and the ocean. One of the major themes 
of Charting the Course for Ocean Science is the ocean's role in 
climate. In particular, the President's FY 2008 budget request for NOAA 
includes $5 million for research to assess the Atlantic Meridional 
Overturning Circulation and its role in climate variability in support 
of one of the four near-term priorities outlined in Charting the Course 
for Ocean Science. This research is an integral part of NOAA's strategy 
to address how to equip Federal, state and local managers to mitigate 
the impact of climate change in coastal areas. This request will 
support the development of now-casting capabilities and experimental 
products critical to predicting the current and future state of the 
Atlantic Meridional Overturning Circulation as well as support an 
assessment of potential impacts of rapid Atlantic Meridional 
Overturning Circulation changes on ecosystems, regional sea-level 
changes, regional climate, and socioeconomic systems. These 
capabilities and products will be a valuable resource for understanding 
the impacts of potential abrupt climate change.
    The Intergovernmental Panel on Climate Change Fourth Assessment 
Report's Working Group II report entitled ``Climate Change 2007: 
Climate Change Impacts, Adaptation and Vulnerability'' identifies 
several potential impacts of climate change on the people and natural 
systems of coastal regions as a result of rising sea levels, coastal 
erosion, changes in sea surface temperature, and increased flooding. 
The report also identifies the importance of human pressures and 
behavior in shaping the vulnerability and adaptive capacity of coastal 
regions. Given NOAA's coastal science and management mandates, the 
agency has a key role to play in supporting adaptive capacity of 
communities and ecosystems in coastal regions.
    Numerous NOAA offices and programs involved in coastal efforts are 
actively considering the implications of climate for their stakeholder 
communities and partners, and several have initiated or are expanding 
existing courses of action to address the issue. NOAA recently convened 
a highly successful workshop on Climate Science and Services: Coastal 
Applications for Decision Making through Sea Grant Extension and 
Outreach in Charleston, South Carolina (April 10-12, 2007). The 
workshop marks an important step in the development of an expanded 
partnership among NOAA's climate and coastal programs in an effort to 
provide enhanced support and services for national, state, and local 
constituencies concerned with coastal resource management and planning 
in the face of a dynamic climate system. Another example is the efforts 
of NOAA's Office of Ocean and Coastal Resource Management, which over 
the past year has been working in partnership with the Coastal States 
Organization in leading a visioning exercise involving coastal managers 
and stakeholders on the future direction of coastal zone management. By 
far, the foremost topic among emerging issues identified at the 
visioning forums has been the need to anticipate the impacts of climate 
change through enhanced technical assistance, planning and management.

    Question 2a. How can we operationalize climate change science to 
provide the information products local communities and managers need?
    Answer. There are several NOAA programs that provide climate 
information and products to local communities and managers. One example 
of a program that demonstrates how NOAA operationalizes climate change 
science to provide these information products is the Regional 
Integrated Sciences and Assessments (RISA) program. The RISA program 
supports integrated place-based research across a range of social, 
natural, and physical science disciplines to expand the options of 
decisionmakers in the face of climate change and variability at the 
regional level. The RISA program does this in a manner that is 
cognizant of the context within which decisionmakers function, and the 
constraints they face in managing their climate-sensitive resources.
    RISA teams are comprised of researchers from the physical, natural, 
engineering and social sciences who work together and partner with 
stakeholders in a region to determine how climate impacts key resources 
and how climate information could aid in decisionmaking and planning 
for those stakeholders. This effort often includes analyses of 
adaptation options in the face of a varying and changing climate.
    Because RISA teams conduct research, assessments (e.g., develop 
white papers, newsletters, and/or seasonal outlooks) and stakeholder 
interactions (e.g., workshops, focus groups, extension activities) on a 
continual basis, they are being called upon more and more to act as a 
bridge for bringing climate impact information to decisionmakers. These 
teams also work with the climate services networks within their region, 
such as, state climatologists, National Weather Service offices, 
Regional Climate Centers, and other Federal agencies working on climate 
impact information. Topics covered by individual RISA's depend on 
regional interests. Examples include: agriculture, wildland fire, water 
resources, drought planning, fisheries, public health, coastal climate 
impacts, and transportation.
    Another example of a program that provides climate information and 
products to local communities and managers is the Climate Dynamics and 
Experimental Prediction (CDEP) Program. The CDEP program supports 
NOAA's efforts to improve global climate predictions on seasonal to 
interannual timescales, and brings the science of climate forecasting 
into policy and decisionmaking. In particular, NOAA plans to improve 
its operational intraseasonal to seasonal drought and climate forecast 
capability by using ensembles of multiple state-of-the-art coupled 
climate models to better quantify forecast uncertainties and reduce 
forecast errors. NOAA also plans to increase the scope and 
applicability of its operational climate forecasts by developing new 
and improved drought forecast products to meet the needs of 
decisionmakers.
    Another example is the National Integrated Drought Information 
System (NIDIS). NOAA's vision for NIDIS is a comprehensive, user-
friendly, web accessible system to serve the needs of policy and 
decisionmakers at all levels concerned with drought preparedness, 
mitigation, and relief/recovery. Water resource managers, ranchers, 
farmers, hydropower authorities, municipalities and state agencies will 
have more comprehensive and timely information to inform their 
decisions regarding allocation of water, or planting and purchasing 
feed for livestock. NIDIS is supported by NOAA's current operational 
drought monitoring and outlook products and NOAA's applied climate 
research. In June 2007, the NIDIS Implementation Plan was published, 
which outlines the governance structure, priorities, and operational 
requirements needed to meet the objectives of the program.
    The Transition of Research Applications to Climate Services (TRACS) 
Program is another program designed to operationalize climate change 
science. The TRACS program supports the transition of well-developed 
research and prototype products, processes and policy tools that will 
expand the use of climate information by regional decisionmakers (e.g., 
private sector, agriculture, state and local government). The TRACS 
program seeks not only to support the implementation of these 
transitions, but also to learn from users how we can better accomplish 
technology transition in the future, for public goods applications and 
improved risk management. TRACS works with universities, NOAA 
laboratories and operational units, and stakeholder groups.

    Question 3. While reducing emissions of CO<INF>2</INF> to ensure 
that climate change remains in check is an incredibly important effort, 
the fact remains that climate change is already happening. Our local 
managers need to have the tools to cope and adapt in the face of the 
changes we're seeing and are likely to see. Admiral, are NOAA managers 
factoring climate change into their management strategies in order to 
ensure species remain resilient and able to adapt?
    Answer. NOAA is both the Nation's climate information provider and 
also a consumer of that information, with respect to managing the 
effects of climate change in marine and coastal environments. Resource 
managers at the Federal level are now beginning to factor climate 
change into their management strategies and planning. In addition, 
through partnerships with NOAA, state and local resource managers are 
being provided with the information needed to do the same.
    NOAA's Coral Reef Conservation Program provides a variety of tools 
and information to help NOAA and other managers incorporate climate 
change as a factor when developing management strategies to promote 
resilient coral reef ecosystems. NOAA's Coral Reef Watch program 
provides reef managers and others around the world with near real-time 
warnings of coral bleaching events. These warnings allow managers to 
mobilize targeted monitoring efforts to assess impacts and identify 
areas of high resilience to bleaching events, keep users and the public 
informed of reef conditions, and take management action to reduce other 
stressors on the reef.
    In 2006, NOAA and its partners produced A Reef Manager's Guide to 
Coral Bleaching, which articulates the state of knowledge on the causes 
and consequences of coral bleaching, provides information on responding 
to mass bleaching events, and highlights how to develop bleaching 
response plans and other management strategies. The guide helps reef 
managers increase the resilience of coral reefs and related ecosystems 
to expected changes in the global climate system. NOAA and its partners 
are conducting trainings for coral reef managers on use of the guide in 
2007-2008. In addition, coral reef managers in Hawaii, Guam and 
American Samoa have developed Local Action Strategies to address 
impacts of climate change on coral reef ecosystems as part of a U.S. 
Coral Reef Task Force initiative. NOAA is helping to support 
implementation of these plans and development of similar plans in other 
U.S. coral reef regions.
    With assistance from the Federal Coastal Zone Management (CZM) 
Program, several state CZM programs have already undertaken initiatives 
to identify and adapt to climate change and sea level rise. Among those 
initiatives:

  <bullet> The Maryland CZM Program (MCZMP) has developed a Sea Level 
        Rise Response Strategy for the state of Maryland, acquired high 
        resolution elevation data for coastal areas, and funded a 
        state-wide reassessment of shoreline change and erosion rates. 
        The work of the MCZMP was instrumental in the development and 
        issuance of an Executive Order establishing a State Commission 
        on Climate Change. The MCZMP is leading the State Commission's 
        Adaptation and Response Working Group that will develop a 
        Comprehensive Strategy for Reducing Maryland's Vulnerability to 
        Climate Change.

  <bullet> The San Francisco Bay Conservation and Development 
        Commission (BCDC) is conducting a climate change study to 
        identify the impacts of climate change, update policies that 
        may pertain to climate change effects, and organize a regional 
        program to address climate change. BCDC is working with the 
        NOAA Climate Program's Regional Integrated Sciences and 
        Assessments Program to obtain data to develop maps of San 
        Francisco showing the impacts of a one-meter rise in sea level.

  <bullet> The New Jersey Coastal Management Program is preparing 
        guidance for establishing buffers to allow wetlands to migrate 
        in response to sea level rise.

  <bullet> The North Carolina Division of Coastal Management has been 
        an active partner with the NOAA Ecological Effects of Sea Level 
        Rise Research Program. The State has provided invaluable input 
        on planning the pilot project for North Carolina, designing the 
        research, and the use of modeling tools.

    NOAA also has the Climate Regimes and Ecosystems Productivity 
program designed to understand and predict the consequences of climate 
variability and change on marine ecosystems. The goal of the program is 
to develop forecasts of changes in fishery, coastal, and coral reef 
resources in response to climatic changes. The forecasts provide users 
and managers of ocean and coastal resources information, such as the 
Fishery Management Councils and Coastal Zone Managers, the information 
they require to adapt to changing climate regimes. Specifically, the 
program focuses on climate change and ecosystems in the North Pacific.
    Presently, the only U.S. fishery that explicitly uses climate data 
in its management plan is the Pacific sardine. For this fishery, a 
variable fraction of the population is allowed to be harvested 
depending on the average ocean temperature for the preceding three 
seasons. This management approach allows more of the stock to be 
harvested when conditions are conducive to high sardine productivity, 
while less is harvested when conditions are less conducive to sardine 
productivity. This management strategy thus ensures adequate stock size 
for reproduction for future years by factoring climate information into 
the management plan.
    A number of NOAA's research programs have begun to consider how 
climate change, and specifically ocean acidification scenarios, may 
impact other regulated species--particularly bivalve mollusks, 
crustaceans, and species dependent on shallow-water coral reefs. Over 
50 percent of the value of U.S. fisheries derives from clams, scallops, 
and oysters, and various species of shrimp, crab, and lobster. These 
shellfish are thought to be particularly vulnerable to the effects of 
reduced levels of calcium carbonate in the oceans due to increasing 
acidity. NOAA's National Marine Fisheries Service has initiated a few 
pilot studies to attempt to understand these impacts.

Ocean Governance
    Question 1. In implementing the recommendations of the U.S. Ocean 
Action Plan, which do you believe is the larger hurdle--obtaining the 
necessary funding for oceans programs, or overcoming the inadequacies 
of our current system of ocean governance?
    Answer. The Administration responded to ocean governance issues 
with an Executive Order that established, within the White House, the 
Committee on Ocean Policy and mandated coordination among Federal 
agencies including coordination and consultation with local and foreign 
governments and the private sector. The Committee on Ocean Policy and 
its associated governance structure (including the Interagency 
Committee on Ocean Science and Resource Management Integration, the 
Subcommittee on Integrated Management of Ocean Resources, and the Joint 
Subcommittee on Ocean Science and Technology) are facilitating the 
development and implementation of common principles and goals for 
governmental activities, as laid out in the U.S. Ocean Action Plan. The 
overarching goal is to improve the collection, development, 
dissemination, and exchange of information across agencies, and reduce 
fragmented management and policy approaches.
    NOAA is requesting a total of $123 million in spending directly 
related to the U.S. Ocean Action Plan in the FY 2008 President's 
Budget, including $60 million for enhanced ocean science and research, 
$38 million for protection and restoration of marine and coastal areas, 
and $25 million for sustainable use of ocean resources.
    NOAA believes these are bold steps in the right direction toward 
the intent of the U.S. Commission on Ocean Policy and the U.S. Ocean 
Action Plan. Ocean and coastal governance is benefiting from more 
systematic collaboration and better interagency coordination across 
Federal agencies as a result of the Committee on Ocean Policy, and 
associated governance structure.

    Question 2. The Administration has suggested an organic act for 
NOAA. It is my understanding that NOAA's responsibilities are spread 
out among over two hundred separate statues. Do you think passage of an 
organic act should be a priority for this committee and for Congress? 
How would it help NOAA better accomplish its mission of protecting and 
restoring our oceans and coasts?
    Answer. The U.S. Commission on Ocean Policy stated that Congress 
should ``solidify NOAA's role as the Nation's lead civilian ocean 
agency through the enactment of a NOAA organic act that codifies the 
agency's establishment within the Department of Commerce, clarifies its 
mission, and strengthens the execution of its functions.'' The U.S. 
Commission on Ocean Policy and the Administration, as stated in the 
U.S. Ocean Action Plan, agree that the single most important step that 
can be taken to ensure NOAA meets its operational goals and fulfills 
mission responsibilities is the enactment of a NOAA Organic Act. We 
believe enactment of a broad organic act that provides basic agency-
wide authorities would allow NOAA to more efficiently conduct the 
activities needed to meet its statutory requirements. The 
Administration transmitted a NOAA Organic Act to Congress in 2005, and 
has plans to transmit a bill again in the 110th Congress.

Weather Radar Coverage on the Northwest Coasts
    Question 1. I understand from Washington state fisherman and 
mariners that there is little useful weather radar coverage over 
Northwest coastal waters. Unfortunately, in contrast to the rest of the 
country, this means that Northwest weather forecasters lack crucial 
information about dangerous weather features such as heavy 
precipitation and strong winds. Do you think additional radar 
information could help improve coastal search and rescue operations in 
that region and potentially save lives?
    Answer. The radar coverage over the coastal waters off and along 
the Pacific Northwest coast was improved with the installation of the 
Weather Surveillance Radar-1988, Doppler (WSR-88D/NEXRAD) network. 
NOAA's National Weather Service (NWS) weather forecasters use data from 
several sources including buoys, satellites, surface reports, and 
spotter reports, in addition to weather radar data, to prepare weather 
forecasts and warnings. In March 2005, the NWS completed a study 
titled: Objective Methodology and Criteria to Assess Requirements for 
Additional Weather Radars. We applied this methodology to the west 
coast of Washington and determined NWS has no requirement for an 
additional WSR-88D radar in western Washington.
    We agree with the recommendations from the National Research 
Council study Flash Flood Forecasting over Complex Terrain: With an 
Assessment of the Sulphur Mountain NEXRAD in Southern California 
(National Academies Press, 2005), stating all available Federal radar 
data should be made accessible to the NWS, as well as local television 
station Doppler radars and operational radars from other organizations. 
The study recommends, ``The NWS should consider augmenting the NEXRAD 
network with additional short-range radars to improve observation of 
low level meteorological information.'' NOAA is addressing these 
recommendations by accessing Federal Aviation Administration (FAA) 
Terminal Doppler Weather Radars (TDWR) and FAA radars supporting air 
traffic. In addition, we are working with the University of 
Massachusetts and the National Science Foundation's Center for 
Collaborative Adaptive Sensing of the Atmosphere program to determine 
the feasibility of integrating a number of small-scale Doppler radar 
technologies into our observing systems in the future.

    Question 2. I understand that offshore military operations would 
also greatly benefit from this crucial weather information. As a former 
Navy Admiral, do you concur with this assessment?
    Answer. The Department of Defense (DOD) requirements for weather 
radar coverage along the Pacific Northwest coastal waters were met with 
the installation of the original NEXRAD network installation. I am 
unaware of any new DOD requirements.

Magnuson-Stevens Act Implementation
    Question 1. I'm concerned that NOAA does not have adequate 
resources budgeted to meet many of its congressional mandates. In 
particular, I'm concerned about funding for implementation of the 
Magnuson-Stevens Act, which we passed just last year. The Congress and 
the Administration were very clear--Magnuson was supposed to end 
overfishing in this country. NOAA requested $6.5 million for Magnuson 
Implementation in the President's FY 2008 budget request. This request 
will help initiate the implementation of MSA but is nowhere near the 
estimated $70 million it will take to fully implement MSA requirements 
or the $348 million MSA authorized for FY 2008 alone. We have a long 
way to go on this. I understand that approximately $1 million of the 
$6.5 million requested would be used to establish Annual Catch Limits, 
a key part of ensuring we don't overfish. However, there are 530 stocks 
that need an Annual Catch Limit and NMFS currently has only 150 
prepared.
    Admiral, what is your plan and time-table to fully implement the 
Magnuson-Stevens Act?
    Answer. NOAA has developed a plan and time-table to implement the 
revised Magnuson-Stevens Act. The plan's priorities are based on 
provisions with Congressionally-mandated deadlines.
    Including:

  <bullet> Fishery management plans meet annual catch limit 
        requirements (2010 and 2011)

  <bullet> Revise procedures for compliance with NEPA and MSA 2006 
        (Jan. 2008)

  <bullet> Establish a program to improve the data currently generated 
        by the Marine Recreational Fisheries Statistics Survey (Jan. 
        2009)

  <bullet> Submit the first international report and certification 
        procedures for Illegal, Unregulated, and Unreported fisheries 
        (Jan. 2009)

  <bullet> Establish a Bycatch Reduction Engineering Program (Jan. 
        2008)

  <bullet> Publish guidelines on limited access program referenda for 
        New England and Gulf Councils (Jan. 2008).

    The Agency provides a publicly-available tracking report of 
implementation progress. This report shows the status of thirty one 
activities required under the reauthorized Act. (http://
www.nmfs.noaa.gov/msa2007/implementation.htm)

    Question 2. Do you have the resources you need to achieve this?
    Answer. To implement requirements of the reauthorized Magnuson-
Stevens Fishery Conservation and Management Act (MSRA), the President 
requested an increase of $12.5M in his FY 2008 Budget. This included 
$6M to facilitate the development of market-based approaches to 
fisheries management, and $6.5M to implement other aspects of the MSRA, 
including initiating development of annual catch limits (ACLs), 
improving the marine recreational fishery survey, reducing illegal, 
unregulated, and unreported fishing, improving the scientific review 
process, and working on the Pacific Whiting Treaty. NOAA continually 
evaluates its resource requirements with the Administration through the 
budget process.
    In FY 2007, NMFS spent approximately $360M on programs authorized 
by MSRA, including fisheries research and management, stock 
assessments, salmon management activities, survey and monitoring of 
habitat and fish stocks, grants to Fishery Management Councils and 
states for fisheries management and research activities, efforts to 
reduce bycatch, law enforcement and surveillance, providing fisheries 
observers and sustainable habitat management.

    Question 3. How do you expect to establish Annual Catch Limits for 
530 fish stocks when only about $1 million in this year's budget will 
go toward accomplishing that? What is your time-table for establishing 
these Annual Catch Limits?
    Answer. The $1 million identified in NOAA's funding request is a 
first step toward establishing annual catch limits (ACLs). NOAA's 
funding needs for ACLs will change over time. How these needs will be 
met will be determined in the context of the Administration's annual 
budget formulation process. ACLs will be designed to end and prevent 
overfishing in the Nation's fisheries. Approximately 139 stocks 
currently have adequate stock assessment data with which to establish 
ACLs. As resources become available or reprioritized, NOAA will 
continue to improve stock assessment data and address ACLs for 
additional stocks.
    To implement effective ACLs by 2010 (for stocks subject to 
overfishing) and 2011 (for all other stocks), the Agency must define 
and explain the statutory provisions related to ACLs and accountability 
measures (AMs). NOAA solicited public comments to identify issues to 
consider addressing in potential guidance on ACLs and AMs between 
February 14, 2007 and April 17, 2007. NOAA is currently considering 
these comments and the scope of issues to address in guidance on ACLs 
and AMs. NOAA is working on formal ACL guidance that will revise 
National Standard 1 and plans to have proposed and final rules 
published in early 2008. This will allow the Regional Fishery 
Management Councils time to develop fishery management plan (FMP) 
amendments or proposed regulations and time for NOAA to implement the 
measures, if approved, or take a separate action. In addition, NOAA is 
also in the process of evaluating current FMPs to identify fisheries 
that will need new or improved measures. Last, NOAA plans to develop 
technical guidance by the spring of 2008 for the Regional Fishery 
Management Councils and their Scientific and Statistical Committees 
(SSCs) to use as they implement annual processes for setting ACLs.

Reduction of Funding for Marine Mammals
    Question 1. In the FY 2008 President's budget, funding for the 
Marine Mammal Initiative is terminated and marine mammal funding in the 
Protected Species Research and Management program is reduced by 
$991,000. Could you please describe the specific impact that these 
reductions, if implemented, would have on existing NOAA marine mammal 
programs?
    Answer. The reduction of $991,000 to the Marine Mammals line refers 
to the difference between the President's Budget request for FY 2008 of 
$39,221,000, and the FY 2006 enacted funding level of $40,212,000. The 
net decrease is the result of a series of offsetting increases (such as 
the respread of the Alaska Composite and $1.0 M to increase the North 
Pacific Southern Resident Orca) and the termination of Congressionally 
directed projects, including the Marine Mammal Initiative.
    The largest reduction in marine mammals is associated with 
unrequested funding which has been used for the Marine Mammal 
Initiative (MMI) which has provided for marine mammal conservation and 
recovery work since 2005. Congress provided $9,856,134 in unrequested 
funding in FY 2005, and $4,931,204 in unrequested funding in FY 2006. 
NOAA has allocated $4,961,882 in FY 2007 for base activities such as 
stranding and unusual mortality event (UME) response coordination; 
collection and analysis of samples from Strandings/UMEs; stock 
assessments; and Take Reduction Team activities. This funding supports 
the highest priority needs of the marine mammal program.

Tsunamis
    Question 1. In your opinion, where are the most vulnerable gaps in 
our tsunami warning system as it currently stands?
    Answer. The FY 2008 budget request continues the Administration's 
commitment to strengthen the U.S. Tsunami Warning Program. While the 
overarching focus of this larger effort embraces the three integrated 
components of the National Tsunami Hazard Mitigation Program (improving 
tsunami warning guidance, improving tsunami hazard assessment, 
improving tsunami mitigation), NOAA's initial efforts in strengthening 
the U.S. Tsunami Warning Program have been on improving tsunami warning 
guidance. This has included expanding NOAA's DART station network, 
expanding and upgrading NOAA's sea-level reporting network, expanding 
and upgrading NOAA's seismic networks, and upgrading the operations of 
NOAA's two Tsunami Warning Centers to 24/7 operations. While NOAA has 
also expanded and accelerated its tsunami inundation, mapping, modeling 
and forecast efforts as well as its TsunamiReady and tsunami 
preparedness programs, the number of at-risk communities justifies 
continued involvement in these important areas, as requested in the 
President's FY08 budget.

    Question 2. I'm pleased to see the Administration following through 
on the $37.5 million pledge to get the Nation moving in the right 
direction with respect to tsunami preparedness. What have the last 
several years of funding bought us in terms of preparedness? I'm 
wondering if you can give specific examples of how these funds have 
been spent to reduce the risk to human life from tsunamis.
    Answer. Since FY 2005, NOAA has made dramatic improvements in its 
efforts to strengthen the U.S. Tsunami Warning Program. As of July 31, 
2007, 32 operational Deep-ocean Assessment and Reporting of Tsunami 
(DART) stations have been deployed, with seven more to be deployed by 
March 31, 2008. There are now 42 TsunamiReady communities, up from 11 
at the beginning of 2005. We completed 17 of 75 tsunami inundation 
mapping and forecast models, with nine more to be completed by the end 
of this fiscal year.
    For FY 2008 NOAA is requesting $23.2 million to continue 
strengthening the U.S. Tsunami Warning Program. With this request, we 
will achieve full operating capability in FY 2008. The FY 2008 Budget 
Request supports funding to:

  <bullet> Complete the deployment of the planned 39 DART Station 
        Network;

  <bullet> Continue NOAA's tsunami inundation mapping, modeling, and 
        forecast efforts, by completing 9 additional models (for a 
        total of 35) of 75 planned tsunami inundation mapping and 
        forecast models;

  <bullet> Continue NOAA's tsunami education/outreach activities, 
        including support for NOAA's TsunamiReady program, for all U.S. 
        communities at risk;

  <bullet> Continue 24/7 Operations at the Pacific Tsunami Warning 
        Center and the West Coast/Alaska Tsunami Warning Center; and

  <bullet> Continue funding for the National Tsunami Hazard Mitigation 
        Program.

    Question 2a. Where are we in our efforts at evacuation and 
emergency preparedness preparation?
    Answer. Since the December 2004 Indian Ocean tsunami, NOAA has been 
working with its partners to identify at-risk coastal communities and 
accelerate and expand its tsunami community preparedness activities, 
including the TsunamiReady program. A key element driving the success 
of this program is the willingness of the at-risk coastal communities 
to voluntarily participate in the program. NOAA is committed to working 
with each at-risk coastal community to ensure that they, and their 
emergency management officials, fully understand the tsunami hazard and 
take appropriate preparedness actions. These actions include a well-
designed tsunami emergency response plan. NOAA's goal is to recognize 
all at-risk coastal communities as ``TsunamiReady'' communities.
Law of the Sea
    Question 1. The President recently stressed the importance of 
accession to the U.N. Convention on the Law of the Sea as one of your 
top ten priorities. You cite the global nature of addressing the 
declining health of our oceans, as well as the need for the U.S. to 
assert international leadership and enhance our own security and 
economic needs. The U.S. Navy and the Coast Guard have testified that 
joining the convention will strengthen our freedom of navigation, and 
all major U.S. industries support accession to the convention. Can you 
please tell us, from the NOAA perspective whether you believe the 
Senate should act on this important treaty?
    Answer. NOAA strongly supports favorable Senate action on U.S. 
accession to the Law of the Sea Convention during this session of 
Congress. Accession is a key priority of the U.S. Ocean Action Plan and 
just this past May, the President issued a statement urging the Senate 
to approve the Convention.\1\ Accession to the Convention is important 
to NOAA because it provides the basic legal framework for marine 
protection and utilization.
---------------------------------------------------------------------------
    \1\ ``President's Statement on Advancing U.S. Interests in the 
World's Oceans'' (May 15, 2007) available at http://www.whitehouse.gov/
news/releases/2007/05/20070515-2.html.

    Question 2. Is the Administration fully implementing our rights 
under UNCLOS to protect our coastal and ocean resources?
    Answer. Since 1983 it has been official U.S. policy, as stated by 
President Reagan, to recognize and abide by the all of the provisions 
of the Convention except for the deep seabed mining provisions.\2\ 
However, until the U.S. accedes, we cannot fully implement the rights 
afforded Convention parties to protect our coastal and ocean resources. 
For example, as a non-party, we do not have access to the Commission on 
the Limits of the Continental Shelf and cannot maximize the legal 
certainty concerning the outer limit of the U.S. continental shelf 
beyond 200 nm from the baseline (commonly termed the ``extended 
continental shelf'').
---------------------------------------------------------------------------
    \2\ The United States' concerns with the Convention's deep seabed 
mining provisions were subsequently addressed by an agreement concluded 
in 1994 that modified the objectionable provisions governing seabed 
mining. The United States was actively involved in the negotiation of 
this agreement (the Agreement Relating to the Implementation of UNCLOS 
Part XI), and signed it in July 1994.
---------------------------------------------------------------------------
    The U.S. extended continental shelf is estimated to be among the 
world's largest, encompassing thousands of square miles of seabed and 
subsoil. It is difficult to estimate the value of the area because 
research to date has been extremely limited and the values of the 
resources are subject to market fluctuations. However, a 2000 study 
estimated that the global value of the non-living resources in all the 
offshore areas that may be claimed by coastal states at $11,934 
trillion (at 2001 raw commodity prices).\3\) Beyond non-living 
resources, a variety of sedentary species hold commercial and ecosystem 
values. Until the U.S. accedes to the Convention, our exclusive 
sovereign rights to manage the natural resources of the extended 
continental shelf would be open to challenge.
---------------------------------------------------------------------------
    \3\ Murton, B.J., Parson, L.M., Hunter, P. and Miles, P.R. Global 
Non-Living Resources on the Extended Continental Shelf: Prospects at 
the year 2000. Proceedings of the Meeting on Non-Living Marine 
Resources Beyond 200 Nautical Miles. International Seabed Authority 
Technical Report No. 1.
---------------------------------------------------------------------------
    As a non-party, our ability at international fora to influence 
other countries to be as protective of shared living marine resources 
(e.g., straddling fish stocks) is limited.

    Question 3. If not, what are some of the additional measures, from 
NOAA's perspective, that should be taken?
    Answer. To conserve and manage its ocean and coastal resources, the 
U.S. should accede to the Convention during this session of Congress. 
In addition, Congress should fully fund the President's FY 2008 budget 
request to allow NOAA, in cooperation with the State Department and 
other Federal agencies, to collect and analyze all relevant data, and 
to prepare the necessary documentation, to establish the outer limit of 
the U.S. extended continental shelf in accordance with international 
law.

    Question 4. What impact would that have on NOAA and the work that 
your agency does?
    Answer. Accession to the Convention would allow NOAA to fully 
implement, affirm, and codify U.S. rights to sustainably manage living 
marine resources in our Exclusive Economic Zone and on our continental 
shelf, conduct marine scientific research, and support mining of the 
deep seabed by U.S. industry. Accession would also enhance NOAA's 
ability to persuade other coastal nations to better conserve and manage 
their natural resources and protect the marine environment across a 
wide range of international programs and engagements it carries out.
Federal Columbia River Power System (FCRPS) Biological Opinion (BiOp)
    Question 1. Last month the Federal agencies in the ongoing Columbia 
River Power System BiOp remand in Judge Redden's Court in Oregon 
submitted their latest Proposed Action to recover salmon and steelhead 
in the Federal Columbia River Power System. This Proposed Action is the 
result of well over a year of collaboration among Federal agencies, 
states, and tribes, which began in October 2005 when Judge Redden 
directed NOAA to revise the 2004 BiOp. When NOAA submitted the 2004 
BiOp to Judge Redden, it did so without involving the sovereigns and 
used a completely new approach that was a surprise to all the parties. 
That is when Judge Redden directed NOAA to work collaboratively with 
the sovereigns to achieve regional consensus and using the best 
available science in revising the 2004 BiOp. With this current Proposed 
Action, what is NOAA's plan to continue to coordinate with the 
sovereigns and the collaborative Policy Working Group in putting the 
2007 BiOp together to achieve regional consensus and using the best 
available science?
    Answer. NOAA will continue to coordinate and collaborate with the 
sovereigns and the Policy Working group through the completion of the 
BiOp. In August the FCRPS agencies will submit their Biological 
Assessment and a comprehensive analysis that will further describe 
their proposed Reasonable and Prudent Alternative (RPA). The August 
version will be a refinement of that submitted to the court and parties 
in May 2007, reflecting the results of further collaboration with the 
region's sovereigns. NOAA's National Marine Fisheries Service 
contributed significantly to this ongoing sovereign collaborative 
process through which the Federal agencies are developing their 
proposed RPA for the FCRPS. In writing our biological opinion, we will 
follow the proposed RPA and utilize the same analytical methods 
developed in the sovereign collaborative process to evaluate the 
effects of the RPA on the affected salmon and steelhead. On October 31, 
2007, we will provide the sovereigns and Policy Working Group a draft 
biological opinion for their consideration and comment to further 
inform our final biological opinion.

    Question 2. NOAA and the Federal agencies have been working for 
nearly 10 years to craft a plan for operating the Federal Columbia 
River Power System that will also recover endangered salmon and 
steelhead. The courts have struck down past plans that were inadequate 
and there have been many delays in crafting a viable plan. In the 
recent status conference in the ongoing BiOp remand, Judge Redden gave 
the agencies an October 31, 2007 deadline for issuing a BiOp that has 
regional consensus and is based on the best available science. What is 
NOAA's plan to ensure that there is adequate staffing in place to 
achieve the October 31 deadline without any further delays?
    Answer. The Court-ordered October 31 deadline is for NOAA's 
issuance of a draft biological opinion which will mark the beginning of 
a comment period for regional sovereigns and parties to the litigation. 
A deadline for issuance of a final biological opinion will be set by 
the Court after the draft biological opinion is available. NOAA is 
committed to meeting the court's deadline. Compliance with Judge 
Redden's order is a priority, and resources will be found, even if 
other activities are delayed. A significant number of staff are 
currently assigned to this effort and using Fiscal Year 2007 FCRPS 
Biological Opinion funding we have contracted with additional support 
staff that will assist with document organization, editing and data 
management.

    Question 3. In the BiOp remand, Judge Redden directed NOAA to 
conduct a life-cycle analysis for each endangered fish species that 
considers all 4 ``H's''--Hydro, Habitat, Hatchery, and Harvest. Since 
NOAA is conducting a life cycle analysis for the Columbia River Power 
System 2007 BiOp, what implication does this have for other BiOps? Is 
NOAA going to use the same life cycle analysis for the ``harvest'' BiOp 
in the U.S. v. Oregon BiOp, which is due in December?
    Answer. Whenever NOAA issues a biological opinion, including those 
for harvest actions, it must take into account the current status of 
the threatened or endangered salmon and steelhead. NOAA must determine 
how that status has been affected by future actions that have already 
been found, in an ESA consultation, to satisfy the ESA standards of 
avoiding jeopardy and adverse modification of critical habitat. Thus, 
the effect of the FCRPS RPA will become the baseline for future Federal 
actions in the same area, such as U.S. v. Oregon, after NOAA completes 
its ESA consultation. An equally important factor for NOAA is the 
judicial interpretation of the ESA and its application. Thus, future 
biological opinions will conform to the decisions of the Ninth Circuit 
Court of Appeals in the NWF v. NMFS and related litigation, affirming 
Judge Redden's decisions.

    Question 4. Earlier this month, Seattle Federal Judge John 
Coughenour issued a ruling that flatly rejected the idea that if enough 
salmon can be produced in hatcheries, then there is little need to 
protect wild stocks. Judge John Coughenour ruled that the Endangered 
Species Act has a ``central purpose of preserving and promoting self-
sustaining natural populations.'' What are the implications of this 
ruling on the hatchery portion of the Columbia River Power System 2007 
BiOp?
    Answer. The ruling from Judge Coughenour emphasized the intent of 
the ESA to protect naturally self-sustaining salmonid populations and 
the habitats they rely on. While the challenge was to a listing 
decision and not a biological opinion, the judge's ruling is consistent 
with NOAA's past application of the ESA, including the analysis of 
biological effects of proposed actions, and development of biological 
opinions.
    NOAA's National Marine Fisheries Service has never suggested, in a 
listing decision or a biological opinion, that ``if enough salmon can 
be produced in hatcheries, then there is little need to protect wild 
stocks.'' In his Order, Judge Coughenour stated in part: ``NMFS has 
interpreted the ESA to focus on the protection and promotion of 
naturally self-sustaining populations. . . .'' (ORDER at 29)
    The ruling in this case set aside NOAA's Hatchery Listing Policy 
and reinstated the endangered listing of Upper Columbia steelhead. The 
holding in this case pertains to the listing process described in 
Section 4 of the Endangered Species Act. As such, it does not directly 
affect biological opinions described in Section 7(a)(2).
    NOAA intends to continue using the best available science regarding 
hatcheries, including their effects on natural populations, in the 
FCRPS Biological Opinion. NOAA will draw on the work of the Hatchery 
Science Review Group (HSRG), the technical recovery teams, and other 
technical experts to assess the effect of the proposed action on listed 
species. The proposed action includes hydropower, habitat, hatchery and 
harvest elements and NOAA's biological opinion will evaluate the 
effects of all of those elements on each of the thirteen listed species 
in the Basin.

Salmon Recovery in the Pacific Northwest (in general)
    Question 1. I understand NOAA is continuing to work hard to develop 
salmon recovery plans for the Columbia River Basin. These recovery 
plans serve as foundations for Federal agency BiOps and blueprints for 
recovering endangered salmon and steelhead basin-wide. To help achieve 
this goal, I have worked with my colleagues to ensure that the Pacific 
Coastal Salmon Recovery Fund is sufficiently funded so that these plans 
will in fact recover endangered salmon and their habitat. What is the 
schedule for getting the recovery plans done in the Columbia River 
Basin?
    Answer. Significant progress has in fact already been made in 
completing recovery plans for ESA listed salmon and steelhead. The 
Washington portion of the Lower Columbia was completed in 2005. The 
recovery plan developed under Washington's ``Shared Strategy'' for 
Puget Sound was completed in December 2006. The Hood Canal chum 
recovery plan was completed in May 2007.

    Question 1a. How is NOAA going to oversee the implementation of 
these plans when they are going to be executed by multiple parties?
    Answer. The current schedule for additional recovery plan 
completion is as follows:

  <bullet> Upper Columbia Chinook and steelhead plan: Fall 2007.

  <bullet> Snake River plans: Early 2008.

  <bullet> Mid Columbia steelhead plan: Summer 2008

  <bullet> Entire Lower Columbia (incorporating the already-completed 
        Washington plan with Oregon's plan): Summer of 2008.

  <bullet> Willamette plan: Late 2008.

    Question 1b. How is NOAA going to oversee the implementation of 
these plans when they are going to be executed by multiple parties?
    Answer. The ESA statute directs NOAA Fisheries to ``develop and 
implement'' recovery plans. Most plans are multi-``H'' in scope, 
addressing impacts of habitat changes, hatchery management, harvest and 
the region's hydro system. Also, most plans were developed locally to 
ensure local, state and tribal participation and to enhance buy-in. As 
a result, there is considerable pride-of-ownership in the plans 
completed to date and high expectations that they will be implemented 
by the appropriate agencies.
    NOAA's National Marine Fisheries Service has two fundamental 
obligations for implementing ESA recovery. The first is to promote 
recovery, which will entail the use of recovery plans to inform 
regulatory and non-regulatory mechanisms. While the recovery plans are 
not regulatory documents, they do provide the best available science on 
recovery goals, viability criteria, limiting factors, threats, and 
priority actions. The plans will guide NOAA Restoration actions through 
the Pacific Coastal Salmon Recovery Fund and NOAA Restoration Center 
and will also be used to implement actions by other agencies, state and 
local governments, local organizations and tribes. NOAA will use the 
plans to communicate information about recovery at regional and local 
scales and to use recovery information when implementing our 
responsibilities and additional mandates to provide for sustainable 
fisheries and meet our treaty and trust obligations to the tribes.
    NOAA's second fundamental obligation is to measure progress toward 
recovery under ESA sections 4f and 4g. Meeting this obligation requires 
knowing the status of listed fish, the threats that endanger them, and 
the progress of actions undertaken to assist recovery. This, in turn, 
requires us to assume a leadership role in developing and coordinating 
cost effective research, monitoring, evaluation (RME), adaptive 
management, and reporting processes. Perhaps the most important use of 
these results will be in making decisions pertaining to the species' 
listed status. These results will be provided periodically to the 
Administration, Congress, and public through 5 year status reviews, 
biennial reports, and other mechanisms.
    The National Marine Fisheries Service's Northwest Regional Office 
assigned its staff to geographically based teams in order to aid local 
recovery planning efforts. We will continue to work with the NOAA 
Fisheries Science Center and local teams to integrate recovery 
implementation and RME programs with the region's regulatory and non-
regulatory activities.

    Question 1c. What is NOAA's plan to ensure that its salmon recovery 
policies are in line with the funding levels of the Pacific Coastal 
Salmon Recovery Fund?
    Answer. NOAA has consistently worked to align PCSRF funding with 
West Coast salmon recovery. The Administration's budget request over 
the past 3 years has contained language designed to target additional 
resources toward recovery of ESA listed salmon populations and their 
habitat and to support tribal treaty rights. Congress has not enacted 
this language. Under the terms of the Revised Continuing Appropriations 
Resolution, 2007, NOAA was able to apply additional resources to the 
above priorities and better align funding with recovery needs. Absent 
Congressional direction, NOAA will continue to apply resources to high 
priority needs based on competitive grant applications. Once grants are 
awarded, recipients are encouraged to increase the amount of effort 
targeted at addressing those factors that are limiting the recovery of 
ESA listed salmon.

    Question 2. The Pacific Coast Salmon Recovery Fund provides grants 
funding to western states and tribes to assist state, local, and tribal 
efforts to conserve and recover Pacific salmon and their habitat. The 
Fund is being used to make significant progress in protecting and 
restoring these important species of fish, which are critical to the 
economic, ecological, and cultural well being of the Pacific Northwest. 
Between its establishment in 2000 and 2005, average appropriations for 
the Fund were about $87 million per year. In FY 2006, despite Senate 
efforts to ensure that the Pacific Coast Salmon Recovery Fund included 
appropriations above historical levels at $90 million, the final 
appropriation for the Fund was cut to $66.5 million. In your testimony, 
you indicated that Congress, despite Senate efforts to the contrary, 
and not the Administration chose to impose the recent funding cuts to 
drop the Fund below historical appropriation levels. Yet, in FY 2007 
and FY 2008, the Administration has not requested to restore the Fund 
to historical levels, requesting only $67 million for each fiscal year. 
Whereas in those fiscal years, the Senate restored the Fund to 
historical appropriation levels at $90 million. Does the Administration 
support the historical average appropriation level for the Pacific 
Coast Salmon Recovery Fund at or above $87 million per year?
    Answer. The Administration has not supported funding PCSRF at its 
historical average of $87 million. In FY 2007 and 2008, NOAA has 
requested $67 million in the Pacific Coastal Salmon Recovery Fund, 
which is consistent with the FY 2006 enacted level. NOAA's requests for 
PCSRF funds have proposed language to distribute funding based on the 
priorities of ESA salmon recovery, tribal treaty rights, and habitat 
protection and restoration to ensure the funds are used for projects 
that will provide most return on investment. The Administration 
believes that NOAA can achieve the same gains for the recovery of 
listed pacific salmon at the requested level of $67 million rather than 
at the historical average of $87 million, if resources were targeted to 
priority areas of salmon recovery.

    Question 2a. What salmon recovery and restoration work is not being 
done due to Pacific Coast Salmon Recovery Fund appropriation levels 
below their historical average?
    Answer. The Administration's budget request for PCSRF does not 
define a distribution of funds among the eligible states or tribes. In 
FY 2006, funds available for ESA listed salmon recovery work were 
reduced for the states of OR, CA, and ID and the tribes through 
Congressional direction. The Administration believes that NOAA can 
achieve the same gains for the recovery of listed pacific salmon at the 
requested level of $66.8 million rather than at the historical average 
of $87 million, if resources were targeted to priority areas of salmon 
recovery. As such, with the funds available in FY 2007, funding was 
allocated to work that supported the three priority areas for recovery 
and NOAA expects an increase in the efficiency of the program to 
address ESA salmon recovery with the funds provided.

Enhancing Stewardship
    Question 1. Highlight the elements within your agency's 2008 budget 
request that address the U.S. Commission on Ocean Policy's research 
priorities of enhancing the stewardship of natural and cultural ocean 
resources and improving ecosystem health. In particular, please address 
the following:

  <bullet> Explain how this effort will enable the management of West 
        Coast groundfish stocks to move toward a more ecosystem-based 
        approach.

    Answer. NOAA's Ecosystem Approach to Management (EAM) has been 
encouraged by the Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act of 2006 (16 U.S.C. 1882,  406 f(1-2)), the U.S. 
Ocean Action Plan (2004) and An Ocean Blueprint for the 21st Century 
(2004). In response, NOAA's FY08 request includes $5M for the 
Comparative Analysis of Marine Ecosystem Organization (CAMEO) program, 
a priority of the Administration's Ocean Research Priorities Plan. 
CAMEO will support the development of advanced marine ecosystem models 
as well as research to improve the effectiveness of marine protected 
areas (MPAs) as management tools. While the program will be national in 
scope, it is likely that some resources will be directed to research 
that will help to advance ecosystem approaches to management in the 
California Current ecosystem.
    West Coast groundfish comprise a diverse assemblage of more then 80 
species utilizing a wide range of habitats in the California Current 
ecosystem. Conditions in this ecosystem are strongly driven by climate, 
which is known to have a significant influence on the survival and 
productivity of several species, and is suspected to influence the 
biology of many other commercial, recreational and forage species. 
Given the highly dynamic features of the ecosystem, it is widely 
recognized that improved data and models are needed to improve further 
the management of West Coast groundfish.
    Recently, NOAA Fisheries has initiated pilot projects that will be 
important to an ecosystem-based approach to management. These efforts 
include testing of advanced technology for surveying habitat not 
accessible to conventional survey methods; compilation of coast-wide 
marine habitat data into a dynamic, web-based system that allows 
overlay of habitat with biological data; initiating development of a 
California Current scale ecosystem model; and initiating the inclusion 
of ecosystem considerations into selected stock assessments of 
groundfish species. These are some of the key needs to move toward and 
implement an ecosystem approach to management. The requested FY08 funds 
will allow the pilot projects to continue at their current pilot level.

    Question 1a. Highlight budget elements that support greater state 
and tribal participation in the stewardship of natural and cultural 
ocean resources.
    Answer. NOAA has several programs working with states. The Office 
of Ocean and Coastal Resource Management (OCRM) conducts the Coastal 
and Estuarine Land Conservation Program (CELCP) to provide states with 
grants to preserve many important coastal and estuarine lands. OCRM 
also implements the Coastal Zone Management Act in coordination with 
states, and partners with states in developing the National Estuarine 
Research Reserve System (NERRS), which has 27 reserves across the 
Nation. The National Marine Sanctuaries program collaborates with 
states on sanctuary designation and management. The National Centers 
for Coastal Ocean Science have labs in several states and fund 
extramural research at academic institutions to address important state 
coastal issues such as harmful algal blooms and coral conservations 
research. In addition NOAA is developing a National Height 
Modernization program to fund the establishment of accurate geodetic 
positioning in states. Accurate geodetic provides for safe and 
efficient transportation and commerce, understanding climate change and 
mitigating damage from coastal storms by measuring and monitoring sea 
level rise, information to enable emergency response deciders to plan 
for and respond to natural disasters.
    NOAA's National Ocean Service (NOS) works closely with tribes on 
stewardship of natural and cultural ocean resources through the 
National Marine Sanctuary Program, the Office of Ocean and Coastal 
Resource Management, the Office of Response and Restoration, and the 
National Centers for Coastal Ocean Science.

National Marine Sanctuary Program:
    The Olympic Coast National Marine Sanctuary (OCNMS) signed a 
Memorandum of Agreement with the state of Washington and four coastal 
tribes--the Makah Tribe, Hoh Tribe, Quileute Tribe and the Quinault 
Nation--in January 2007, creating an Intergovernmental Policy Council. 
The Intergovernmental Policy Council's goal is to bring together state, 
Federal, and tribal governments in a forum for efficient communication 
and discussion of the management of marine resources and activities 
within the boundaries of the OCNMS. The OCNMS supports tribal cultural 
activities such as an annual tribal canoe journey and tribal festivals 
with vessel support and educational and outreach programming.
    The Channel Islands National Marine Sanctuary (CINMS) works in 
partnership with a variety of Chumash Indian people and some Chumash 
organizations to accomplish projects of mutual interest, such as canoe 
(tomol) voyages and development of a documentary film about the 
sanctuary. CINMS has created a non-governmental Chumash Community seat 
on its Sanctuary Advisory Council, reflecting its policy that the 
Chumash people are important advisers to the sanctuary and deserve a 
seat at the table.

Office of Ocean and Coastal Resource Management (OCRM):
    The OCRM Marine Protected Area (MPA) Center works with tribes to 
develop a national system of MPAs as directed by Executive Order 13158. 
This involves notification of all federally-recognized tribes on key 
milestones associated with the development of the MPA system, and 
active outreach to tribes in the Pacific Northwest and Great Lakes 
responsible for co-management of marine and Great Lakes resources.
    Over the years, OCRM has coordinated with numerous tribes on 
Coastal Zone Management Act (CZMA) Federal consistency issues between 
states and Tribes, and has mediated CZMA disputes between tribes and 
states.

Office of Response and Restoration:
  <bullet> NOAA's Damage Assessment, Remediation, and Restoration 
        Program (a collaborative program among the Office of Response 
        and Restoration, the National Marine Fisheries Service 
        Restoration Center, and NOAA General Counsel for Natural 
        Resources) maintains ongoing partnerships with numerous tribal 
        governments. As natural resource trustee agencies under the 
        authorities granted them by the Comprehensive Environmental 
        Response, Compensation, and Liability Act and the Oil Pollution 
        Act, NOAA and tribes collaborate to evaluate and resolve 
        liability for injury to natural resources from releases of oil 
        and hazardous substances, and also from vessel groundings in 
        National Marine Sanctuaries. In addition, we work together to 
        oversee restoration of natural resources. Particularly in the 
        Western United States, where treaties have established the 
        rights of tribes to use their traditional fishing grounds, NOAA 
        and tribes have mutual interests to protect and restore natural 
        resources in coastal areas.

National Centers for Coastal Ocean Science:
    The National Centers for Coastal Ocean Science have several 
projects that involve Tribal communities and/or resources. Projects 
include:

  <bullet> Creating an Approach to Utilizing Traditional and Local 
        Ecological Knowledge in Resource Management (AK--Native Village 
        of Port Graham & the Chugach Regional Resources Commission) 
        engages native communities to help document their traditional 
        knowledge of the coastal environment.

  <bullet> The National Status and Trends Mussel Watch Program worked 
        with the second chief (James Kvasnikoff) of Nanwalek, AK to 
        collect mussels for an expanded Mussel Watch Project in Alaska 
        and specifically to sample and analyze marine food items that 
        are used by subsistence fisherman.

  <bullet> Monitoring Domoic Acid in Marine Food Webs and Water to 
        develop sensitive, cost effective detection methods for domoic 
        acid (DA), the toxin produced by harmful diatoms. One goal of 
        the research is, ultimately, to transfer the technology to 
        local tribes and state health officials.

  <bullet> Olympic Region Harmful Algal Bloom (ORHAB) Project is 
        investigating the origins of harmful algal blooms off the 
        Olympic Coast of Washington State. The ORHAB project brings 
        knowledge to the local communities on the Olympic peninsula of 
        the Washington coast, empowering local tribes and state 
        managers to make scientifically-based decisions about managing 
        and mitigating harmful algal bloom impacts on coastal fishery 
        resources.

NOAA Corps
    Question. The Hydrographic Services Improvement Act of 1998, as 
amended, contains language authorizing up to 299 officers in the NOAA 
Corps. Given the increasing demands on the NOAA Corps, is this level 
sufficient for meeting NOAA's operational needs well into the future?
    Answer. In FY 2007, under the present authorization of 299 
officers, NOAA will be able to meet operational needs into the near 
future. Beyond that, future NOAA Corps staffing needs are dependent on 
the size of the fleet, the ratio of officers in shore-based billets to 
sea/air billets, and the Corps ability to respond to national 
emergencies such as hurricane response and recovery, man-made 
disasters, etc.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                Vice Admiral Conrad C. Lautenbacher, Jr.

    Question 1. As the result of the 2006 re-scoping of the National 
Polar-orbiting Operational Environmental Satellite System, 7 of the 
sensors needed for monitoring essential climate variables were either 
``de-manifested'' entirely or will be used at decreased capacity 
levels. A report to the White House Office of Science and Technology 
Policy by senior scientists at NOAA and NASA spelled out in detail how 
this rescoping will undermine our future monitoring of climate change, 
sea-level rise, and other essential related variables. This problem was 
raised at a hearing on climate science held by this committee on 
February 7 of this year. Admiral Lautenbacher, the administration did 
not request funds in the FY2008 budget to rectify this situation. You 
have not committed to developing the needed sensors, including the 
solar irradiance sensor (TSIS), the Earth radiation budget sensor 
(ERBS) and the Ocean Altimeter sensor (ALT). How do you justify this 
decision?
    Answer. NOAA remains committed to its responsibilities to develop 
and implement a robust climate program. The Office of Science and 
Technology Policy (OSTP) coordinated a joint NOAA-National Aeronautics 
and Space Administration study to assess the impact of the demanifested 
sensors. NOAA and NASA are preparing a mitigation assessment for the 
Executive Office of the President.

    Question 2. The National Research Council has warned that the 
Nation's long-term satellite monitoring system is at risk of 
``collapse.'' Given NOAA's role in studying climate change, are you 
concerned about the state of our current satellite program? What steps 
would you take to strengthen it?
    Answer. NOAA has a continuous planning process to develop its next 
generation satellites. NOAA's plan is to provide uninterrupted 
satellite data through at least 2026 from the next generation 
geostationary satellites, known as the Geostationary Operational 
Environmental Satellite R-Series (GOES-R), and the next generation 
polar-orbiting satellites, known as the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS). Through the NPOESS 
and GOES-R systems, NOAA has been working closely with the National 
Aeronautics and Space Administration (NASA) and, where applicable, the 
U.S. Air Force to satisfy requirements of the National Weather Service, 
National Ocean Service, and the NOAA Climate Program.
    In response to a request from the White House Office of Science and 
Technology Policy (OSTP), NOAA has been working with NASA to identify 
options to mitigate the loss of climate sensors from the Nunn-McCurdy-
certified NPOESS program. NOAA and NASA requested assistance from the 
National Research Council (NRC) Space Studies Board to assess the state 
of Earth observations, including the impact of the 2006 changes to the 
GOES-R and NPOESS programs. A special NRC group of experts has assessed 
the impact on climate monitoring capability of the NPOESS Nunn-McCurdy 
certified program. NOAA and NASA are preparing a mitigation assessment 
for the Executive Office of the President.

    Question 3. In real dollars, the Federal research budget for 
climate change science has fallen since the mid-1990s. In your opinion, 
have these budget cuts decreased the ability of Federal climate 
scientists to do their jobs? Does NOAA need more money to adequately 
understand climate change risks?
    Answer. The President's Budget Requests for NOAA, in both FY 2007 
and FY 2008, have included program increases for climate-related 
activities. NOAA has a diverse mission ranging from managing fisheries 
to predicting severe weather to increasing our understanding of the 
Earth's climate. The Administration's requests over the past several 
years have focused on a balanced set of priorities to sustain NOAA's 
core mission services and address its highest priority program needs.
    NOAA continues to move forward with research to better understand 
the risks associated with climate change. Some examples of NOAA's 
recent contributions to climate change science are as follows:

  <bullet> NOAA's climate scientists have continued to make substantial 
        contributions to our understanding of the Earth's climate and 
        climate change. The expertise and contributions of NOAA climate 
        scientists were evident in the recent Intergovernmental Panel 
        on Climate Change 4th Assessment Report. NOAA scientists made 
        valuable contributions to the reports of both Working Group I 
        (The Physical Science Basis) and Working Group II (Impacts, 
        Adaptation and Vulnerability) reports. NOAA climate scientists 
        co-chaired a report and coauthored chapters, and NOAA-sponsored 
        research made enormous contributions to the assessment.

  <bullet> NOAA led the 2006 International Ozone Assessment, which 
        tracked the outcomes of the Montreal Protocol and indicated the 
        protocol is working. For the first time, the assessment shows 
        that ozone depleting substances in the atmosphere have 
        decreased.

  <bullet> NOAA also released the National Integrated Drought 
        Information System (NIDIS) Implementation Plan: A Pathway for 
        National Resilience in hardcopy in June 2007. NIDIS will enable 
        users to determine the risks associated with drought and 
        provide supporting data and tools to inform drought mitigation. 
        The Plan describes how accessible and usable drought 
        information will be developed, deployed, and utilized to 
        facilitate informed decisionmaking by resource managers and 
        others.

    Question 4. The effectiveness of fisheries management depends in 
large part on having reliable and accurate data on the resource. NOAA 
has for 25 years conducted a survey of sea scallop abundance throughout 
the range of the fishery. That data set is extremely valuable to the 
management process, particularly given the duration and continuity of 
the survey.
    The research vessel at the New England Fisheries Science Center in 
Woods Hole, MA, the ALBATROSS, has been the platform used to conduct 
the scallop survey. The ALBATROSS is about to be replaced by the new 
research vessel, the BIGELOW. NOAA has indicated that they have no 
plans to continue the scallop survey on the BIGELOW once the ALBATROSS 
is retired.
    The continuation of this survey is extremely important to the 
continued health of this important fishery, which is valued at $500 
million in direct landings, and makes about a $2 billion total 
contribution to the economy. Will NOAA continue the survey once the 
ALBATROSS is retired?
    Answer. The Northeast Fisheries Science Center intends to maintain 
the 25-year survey time series for Atlantic sea scallops. We have a 
plan that addresses the retirement of the R/V ALBATROSS IV and the 
transition to a replacement survey platform. In 2008, the R/V ALBATROSS 
IV and her survey scallop dredge will be inter-calibrated with a 
program-funded charter vessel, either a UNOLS (University-National 
Oceanographic Laboratory System) research vessel or a commercial 
fishing vessel, along with a new improved scallop dredge designed with 
industry advice. In 2009 and subsequent years, we will support the sea 
scallop time series with a program-chartered vessel and the newly 
calibrated survey dredge.

    Question 5. I am concerned about the erosion of the budget for 
Stellwagen Bank National Marine Sanctuary over the past several years. 
The condition report released earlier this year finds that habitat 
quality is degrading in the Sanctuary and recommends a series of 
management actions to improve water quality and habitat conditions. The 
declining budget since 2005 does not support these efforts. How do you 
justify this budget decline in the face of degraded conditions in the 
Sanctuary?
    Answer. Since FY 2002, the Stellwagen Bank National Marine 
Sanctuary has been provided $9.2 million. In FY 2005, the National 
Marine Sanctuary Program (overall) was appropriated $50.3 million (in 
ORF) and in FY 2006, $35.1 million (in ORF). Funding for each site is 
based on the overall National Marine Sanctuary Program appropriation. 
Thus, in FY 2005, $1.7 million was provided to the Stellwagen Bank 
National Marine Sanctuary and in FY 2006 $1.5 was provided.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                Vice Admiral Conrad C. Lautenbacher, Jr.

Harmful Algal Bloom and Hypoxia
    Question 1. Last year, concerns about funding for harmful algal 
blooms (HABs) research were a high priority through the continuing 
resolution. Extramural, competitive research funds were requested and 
assurances were given that this area would be a high priority. In fact 
discretionary funds were released from higher echelons of NOAA 
management to NOAA's National Centers for Coastal Ocean Science (NCCOS) 
for this specific research subject. It has been brought to my attention 
that funds were then redirected away from its intended HAB research. If 
top leadership of NOAA is receptive to concerns on certain issues and 
dedicate monies from the discretionary fund for this, and those funds 
meant for harmful algal bloom research are then diverted within 
National Ocean Service and NCCOS, how can NOAA top leadership be more 
explicit when they send funds down the line with specific research 
intentions? How can we ensure that funds meant for certain research 
areas in NCCOS are not reprogrammed away from this important national 
issue?
    Answer. NOAA's FY 2008 President's Budget Request expresses our 
priorities. While NOAA agrees that harmful algal blooms are important, 
we must be able to find a balance among all NOAA's needs and 
requirements, including our priorities in the Gulf of Mexico.

    Question 2. For many years now organizations, universities, 
research institutes and Members of Congress have been concerned with 
the funding levels of Harmful Algal Blooms research. It is very 
difficult that the President's budget is continually static at $15.8 
million. This year the House and Senate reported Commerce, Justice and 
Science appropriations bills fund HABs research at $15 million and 
$17.5 million respectively. With an understanding of the pressing need 
for research into this marine issue, how can you better exert your 
influence to regain numbers in this line item to where they were just a 
few years ago?
    Answer. In total, we expect to spend approximately $8.9 million on 
research related to Harmful Algal Blooms (HABs) and hypoxia. This $8.9 
million provides the tools necessary for managers to respond and 
predict HAB and hypoxia events such as those affecting the New England, 
Florida, Pacific Northwest and California coasts, as well as the Great 
Lakes, every year. HAB and hypoxia events threaten human health, kill 
marine animals, impact fisheries, and cost millions of dollars each 
year. Multi-year research programs in New England, Florida, the Pacific 
Northwest and the Great Lakes are also yielding tools and forecasts 
that are helping coastal communities to mitigate the impacts of harmful 
algal bloom in these areas.
    For example, NOAA has developed the Gulf of Mexico HAB Bulletin, 
which produces daily information and twice weekly forecasts that are 
used to determine the current and future location and intensity of 
harmful algal blooms and the likely impacts to the environment. An 
addition $5 million is also requested for a near-term priorities 
project in Charting the Course for Ocean Science in the Next Decade: An 
Ocean Research Priorities Plan and Implementation Strategy to develop 
sensors for marine ecosystems. This effort will include work to develop 
in situ sensors for rapid detection of pathogens, harmful algae and 
their toxins in coastal areas. In addition, some of the $5 million 
requested for Gulf of Mexico Partnerships may be used to support 
coastal communities in their efforts to address harmful algal blooms 
and hypoxia events through competitive grants.

National Undersea Research Program
    Question 1. Undersea habitats have evolved from a time of testing 
if and how humans could live and work under the sea, to today where we 
can effectively use saturation diving and undersea habitats for 
critical ocean science, education, and technology testing.
    The AQUARIUS reef base program in Key Largo, Florida is a unique 
and state-of-the-art NOAA facility especially well suited for in situ 
experiments on climate change impacts on coral reefs, sensor 
development and testing for ocean observing, long-term monitoring of 
coral reefs and to engage the public's imagination and interest. In 
situ experiments that can be done at AQUARIUS are critical if we are 
going to understand the impacts of problems such as climate change, 
ocean acidification, coral reef decline, and ecological shifts in the 
ocean.
    Why has NOAA not taken better advantage of their assets at AQUARIUS 
to conduct research on ocean science topics that are critical to this 
Nation, such as the impact of climate change on reefs, sensor 
development and testing for ocean observing capabilities, or education?
    Answer. NOAA has taken advantage of the AQUARIUS facility to 
conduct research on ocean science topics that are critical to the 
nation, in balance with the other ocean research priorities.
    NOAA has operated the AQUARIUS undersea laboratory, located near 
Key Largo, Florida, since 1987, enabling scientists to live under the 
sea and conduct valuable studies that have contributed to our 
understanding of coral reefs and underwater dynamics. Recent additions 
of advanced information and communications technology has enabled the 
AQUARIUS to provide 24/7 observing capabilities in an environment 
monitored by humans, and to reach students, scientists, and the public 
in real time, allowing virtual participation and observation of 
missions on-going at the laboratory.
    The AQUARIUS now has an expanded network of cabled and non-cabled 
observing system capabilities, advanced communications capability, deep 
refill stations, and remote vehicle capabilities. The new capabilities 
have enabled the AQUARIUS complex to meet a wide range of national 
needs, including coral studies and exciting education and outreach 
initiatives. In addition, NOAA works with the National Aeronautics and 
Space Administration (NASA) to provide the AQUARIUS to NASA for space 
analog training and testing missions.

    Question 2. In the proposed merge of Ocean Exploration and the 
National Undersea Research Program what will be the balance of 
expeditionary science with research that is focused on important 
science topics along our coasts from field stations, e.g., in Florida 
on topics such as climate change and reefs? And how will the balance be 
assured?
    Answer. The programs are being merged to enhance the linkage and 
effectiveness of NOAA's undersea research and ocean exploration 
activities.
    The balance of expeditionary science and research is interdependent 
and will be determined by the Office of Ocean Exploration and Research 
as advised by consultations within NOAA, with extramural NOAA partners, 
and with the NOAA's Science Advisory Board's Ocean Exploration Advisory 
Working Group. A Strategic Concept of Operations has already been 
developed for the merged Office of Ocean Exploration and Research which 
describes the functions and priorities of the new organization as 
exploration; advanced technology development; research to support both 
including focused research on extreme and unique environments, 
continental shelf ecosystems, new ocean resources, and ocean dynamics; 
operations in support of exploration and technology development; and 
education, outreach, and data management. These priorities are based on 
national priorities identified in the Joint Subcommittee on Ocean 
Science and Technology's Charting the Course for Ocean Science in the 
Next Decade: An Ocean Research Priorities Plan and Implementation 
Strategy, the NOAA 5-year Research Plan, the NOAA Strategic Plan, and 
NOAA 20-year Research Vision. In order to increase the focus of 
investment in these areas, some research areas previously supported by 
the National Undersea Research Program that are well addressed in other 
NOAA program areas (i.e., climate, corals) will be de-emphasized.

National Windhazard Reduction Program
    Question 1. In October of 2004 Pub. L. 108-360 was signed into law 
creating the National Windstorm Impact Reduction Program (NWIRP), 
creating a first time authorization for NOAA, NIST, FEMA and the NSF to 
undertake an interagency effort to coordinate Federal wind hazard 
programs and also to empanel a group of 11 to 15 non-Federal wind-
hazard experts and interests to consult with the interagency group. The 
3 main responsibilities of the interagency group are to improve 
meteorological understanding of windstorms, measure windstorm impact 
and identify and promote cost-effective measures to reduce windstorm 
impact. Is this a reasonably correct summary of the NWIRP?
    Answer. Yes.

    Question 2. A similar interagency coordination program, focused on 
earthquakes, known as the National Earthquake Hazard Reduction Program 
(NEHRP) has been in operation since about 1977, correct?
    Answer. The National Earthquake Hazards Reduction Program (NEHRP) 
was established by the U.S. Congress when it passed the Earthquake 
Hazards Reduction Act of 1977. At the time of its creation, Congress's 
stated purpose for NEHRP was ``to reduce the risks of life and property 
from future earthquakes in the United States through the establishment 
and maintenance of an effective earthquake hazards reduction program.'' 
Since NEHRP's creation, it has become the Federal Government's 
coordinated long-term nationwide program to reduce risks to life and 
property in the United States that result from earthquakes.

    Question 3. Are you sufficiently familiar with the NEHRP program to 
venture an opinion about its utility and effectiveness in coordinating 
Federal agency science on earthquakes and earthquake mitigation, and 
the role of its public panel in advising the agencies and disseminating 
understandings of Federal science in earthquake mitigation?
    Answer. NOAA's expertise and responsibilities does not extend to 
earthquake research and mitigation and we defer to our colleagues at 
the National Institute for Standards and Technology (NIST) for an 
opinion on the NEHRP.

    Question 4. Since its enactment in late 2004, can you tell me 
roughly how much has been done to establish the NWIRP, which was 
fashioned after the NEHRP?
    Answer. The National Science and Technology Council (NSTC) 
established a working group for Wind Hazard Reduction with 
representatives from NOAA, National Science Foundation, National 
Institute for Standards and Technology, Federal Emergency Management 
Agency (all included in the NWIRP Act), and Federal Highway 
Administration. The NSTC completed the Windstorm Impact Implementation 
Plan within the first year (2005), and the Windstorm Impact Reduction 
Program Biennial Progress Report for Fiscal Years 2005-2006 is 
undergoing interagency review prior to being submitted to Congress. A 
representative from academia has also presented some ideas on needed 
research to the working group.

    Question 5. Since the enactment of NWIRP in 2004, what major 
hurricanes/windstorms have impacted the United States?
    Answer. Between October 24, 2004, when the National Windstorm 
Impact Reduction Act of 2004 became law, and March 31, 2007--3,789 
major hurricane/windstorm events have impacted the United States. Of 
these events, 48 were hurricane/typhoon events, 1,241 were tornado 
events, and 2,500 were high wind events. These totals include all 
hurricane and typhoon events of Category 1 strength or greater on the 
Saffir-Simpson hurricane scale (winds 74 mph or greater), all tornado 
events greater than F0 on the Fujita Tornado Damage Scale (winds 
roughly 73 mph or greater), and high wind events of 74 mph or greater.
    This information was queried from NOAA's Storm Data which is an 
official publication of NOAA. Storm Data documents the occurrence of 
storms and other significant weather phenomena having sufficient 
intensity to cause loss of life, injuries, significant property damage, 
and/or disruption to commerce. Within NOAA's Storm Data, events are 
reported on a per county or forecast area basis, which means for a 
hurricane/typhoon which passes through 4 counties there will be 4 
separate event reports. This applies to tornadoes and wind events as 
well.

    Question 6. I'll ask you whether you have reviewed the report, 
called the ``Windstorm Impact Implementation Plan'', which was issued 
by OSTP after the particularly devastating impact of Hurricanes Rita 
and Katrina? It observes that the focus on understanding and predicting 
of windstorm hazards and risks by any one Federal agency is ``minimal'' 
at this time, and makes recommendations on implementing a plan to 
create the interagency working group that was authorized. Do you agree 
that the program of work outlined in the OSTP plan should be 
undertaken? If not, which of its recommendations do you suggest should 
be abandoned? Some may find it ironic that the combined spending 
authorization for the four principle agencies in the NWIRP is only just 
over $20 million.
    Answer. As a member of the interagency working group for wind 
hazard reduction, NOAA contributed to the drafting of the Windstorm 
Impact Implementation Plan and has reviewed the completed plan. NOAA 
agrees that the aspects of the program of work outlined in the 
Windstorm Impact Implementation Plan that NOAA would have 
responsibility for should be undertaken; NOAA defers to the National 
Institute for Standards and Technologies (NIST),the Federal Emergency 
Management Agency, and the National Science Foundation to comment on 
the appropriateness of the aspects of the program of work that are not 
under NOAA's purview.
    NOAA supports a number of activities related to measuring and 
predicting windstorms and their impact and under the President's FY08 
request NOAA would continue to do so. Past work has included analyzing 
hurricane surface wind data using NOAA's H*WIND product to the State of 
Florida for their Public Hurricane Loss Projection Model, public 
outreach and education on protecting oneself and structures against 
high wind with a focus on tornados, and several wind resiliency 
activities with university partners including education on building 
codes and wind resilient building. NIST includes specific funding in 
its budget for the National Windstorm Impact Reduction Program and NOAA 
partners with NIST on windstorm reduction impact activities.

    Question 7. Under the NWIRP NOAA is authorized to undertake 
approximately $2 million in work annually, correct? And would the 
agency do so if directed to use FY 2008 appropriations for that 
authorized work?
    Answer. The National Windstorm Impact Reduction Act of 2004 
provides the authority for establishing a National Windstorm Impact 
Reduction Program and NOAA is authorized to be appropriated $2.2 
million in FY 2008 for carrying out such a program.
    If NOAA is directed in enacted FY 2008 appropriation legislation to 
use appropriated funds as authorized in the National Windstorm Impact 
Reduction Act of 2004, NOAA would comply.
    NOAA supports a number of activities related to measuring and 
predicting windstorms and their impact and under the President's FY08 
request NOAA would continue to do so. The National Institute for 
Standards and Technologies (NIST) includes specific funding in its 
budget for the National Windstorm Impact Reduction Program and NOAA 
partners with NIST on windstorm reduction impact activities.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
